<html>
<title> - NOMINATION OF JAMES P. TERRY, TO BE CHAIRMAN OF THE BOARD OF VETERANS APPEALS, U.S. DEPARTMENT OF VETERANS AFFAIRS, AND CHARLES S. CICCOLELLA, TO BE ASSISTANT SECRETARY FOR THE VETERANS EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR</title>
<body><pre>[Senate Hearing 109-303]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-303


 
 NOMINATION OF JAMES P. TERRY, TO BE CHAIRMAN OF THE BOARD OF VETERANS 
     APPEALS, U.S. DEPARTMENT OF VETERANS AFFAIRS, AND CHARLES S. 
                      CICCOLELLA, TO BE ASSISTANT 
SECRETARY FOR THE VETERANS EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF 
                                 LABOR

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
24-579                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS


        .........................................................


                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I), Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado


                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             July 14, 2005

                                SENATORS

                                                                   Page


Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
    Prepared statement...........................................     2
Allen, Hon. George, U.S. Senator from Virginia...................     3
Salazar, Hon. Ken, U.S. Senator from Colorado....................    26
Warner, Hon. John, U.S. Senator from Virginia....................    28
    Prepared statement...........................................    29
Thune, Hon. John, U.S. Senator from South Dakota.................    35

                               WITNESSES

Terry, James P., nominated to be Chairman of the Board of 
  Veterans Appeals, U.S. Department of Veterans Affairs..........     5
    Prepared statement...........................................     6
    Response to written questions submitted by:
        Hon. Larry E. Craig......................................     7
        Hon. Daniel Akaka........................................     9
        Hon. Patty Murray........................................    11
        Hon. Ken Salazar.........................................    14
Ciccolella, Charles S., nominated to be Assistant Secretary for 
  Veterans Employment and Training, U.S. Department of Labor.....    16
    Prepared statement...........................................    18
    Response to written questions submitted by Hon. Larry E. 
      Craig......................................................    20

                                APPENDIX

Akaka, Hon. Daniel, U.S. Senator from Hawaii, prepared statement.    37
Letter from Richard C. Schneider, Executive Director for 
  Government Affairs, NonCommissioned Officers Association of the 
  United States of America supporting the nomination of Charles 
  Ciccolella to be Assistant Secretary for the Veterans 
  Employment and Training, U.S. Department of Labor..............    38


 NOMINATION OF JAMES P. TERRY, TO BE CHAIRMAN OF THE BOARD OF VETERANS 
     APPEALS, U.S. DEPARTMENT OF VETERANS AFFAIRS, AND CHARLES S. 
 CICCOLELLA, TO BE ASSISTANT SECRETARY FOR THE VETERANS EMPLOYMENT AND 
                   TRAINING, U.S. DEPARTMENT OF LABOR

                              ----------                              


                        THURSDAY, JULY 14, 2005

                               U.S. Senate,
                    Committee of Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:43 a.m., in 
room SR-412, Russell Senate Office Building, Hon. Larry Craig, 
(Chairman of the Committee) presiding.
    Present: Senators Craig, Allen, Warner, Salazar, and Thune.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. The Senate Committee on Veterans' Affairs 
will be in order.
    I apologize to all of you, but then I didn't set the vote 
schedule on the floor, and we are in a series of five votes, 
but I thought it important with all assembled that we move as 
expeditiously as possible through this hearing, this 
confirmation hearing, so that the these two gentlemen can begin 
their work on behalf of the America's veterans.
    Before we proceed, I would ask both of you to rise and to 
extend your right hand.
    [Witnesses sworn.]
    Chairman Craig. Do you solemnly swear or affirm that the 
testimony you are about to give the Committee at this hearing 
shall be the truth, the whole truth, and nothing but the truth 
so help you God?
    Mr. Terry. I do.
    Mr. Ciccolella. I do.
    Chairman Craig. Thank you, gentlemen. Please be seated.
    It is my understanding that Senator Warner and Senator 
Allen are en route for introductions, and we hope that holds. I 
am going to put my opening statement in the record and will not 
give a full statement for the sake of time this morning, but I 
would like to introduce to the Committee Mr. Jim Phillip Terry, 
nominated to be Chairman of the Board of Veterans Appeals, U.S. 
Department of Veterans Affairs, and Charles S. Ciccolella. 
Close?
    Mr. Ciccolella. Yes, sir. That is correct.
    Chairman Craig. All right. Nominated to be Assistant 
Secretary of Labor for Veterans Employment and Training.
    [The prepared statement of Senator Craig follows:]

   Prepared Statement of Hon. Larry E. Craig, U.S. Senator from Idaho

    Good morning, ladies and gentlemen. The Committee on Veterans, 
Affairs will now come to order.
    This morning we will receive testimony from two very distinguished 
public servants: Mr. James P. Terry, who has been nominated by the 
President to serve as Chairman of the Board of Veterans' Appeals, U.S. 
Department of Veterans Affairs, and Mr. Charles Ciccolella, who has 
been nominated by the President to serve as the Assistant Secretary for 
Veterans' Employment and Training, U.S. Department of Labor.
    The Chairman of the Board of Veterans' Appeals serves as the head 
of the appellate body that renders final decisions within VA on appeals 
involving veterans' benefits. The Chairman oversees more than 50 
Veterans Law Judges and almost 400 attorneys and support staff. As we 
discussed last month at a hearing before this Committee, it is 
essential that VA's claims adjudication and appeal system provides 
timely and accurate decisions to our Nation's veterans. The Board plays 
an important role in that system, rendering decisions on 30 to 40 
thousand appeals each year.
    It would appear to me that Mr. Terry--a former Marine officer who 
served in combat in Vietnam and is a Purple Heart recipient--would 
bring to the Board a wealth of experience and education. He has 
undergraduate and graduate degrees from the University of Virginia, a 
law degree from Mercer University, and advanced law degrees from George 
Washington University. After he completed his combat service in 
Vietnam, he had a distinguished legal career in the Marine Corps--a 
legal career which culminated with his service as legal counsel to the 
then-Chairman of the Joint Chiefs of Staff, General Colin Powell. After 
his retirement from the Corps with the rank of Colonel, he served in 
the Department of the Interior as Deputy Director of the Office of 
Hearings and Appeals and, later, as an Administrative Judge at the 
Interior Department's Board of Land Appeals. Subsequently, he was 
reunited with General Powell at the State Department where he served as 
Deputy Assistant Secretary for Legislative Affairs.
    Welcome to you, Mr. Terry.
    Turning now to Mr. Ciccolella--he has been nominated to serve as 
the head the Labor Department's Veterans' Employment and Training 
Service (``VETS''), an office which administers national programs to 
help veterans find jobs and also to protect the re-employment rights of 
veterans who have returned from service. Currently, 200,000 service 
members are leaving active duty each year and, for many, obtaining a 
job will be a critical step in successfully making the transition back 
to civilian life. Unfortunately, young veterans--many of them recently 
separated--experience higher unemployment rates than non-veterans. And, 
in total, nearly 700,000 veterans of all ages are unemployed in any 
particular month. Obviously, there is important work to be done to help 
our young veterans--and all unemployed veterans--find suitable 
employment.
    Mr. Ciccolella is undoubtedly very familiar with the employment 
issues facing veterans today since he is currently the Deputy Assistant 
Secretary for the Veterans' Employment and Training Service. Prior to 
coming to ``VETS'', he served as a Senate staffer--first as Chief of 
Operations for the Senate Sergeant At Arms and, later, as the Director 
of Information Technology Policy for the Senate Rules Committee.
    More significantly, perhaps, Mr. Ciccolella served with distinction 
in the U.S. Army for 28 years prior to taking on these important 
civilian jobs. Most notably, he served as an Infantry Officer with the 
101st Airborne Division in Vietnam, and during his Vietnam service, he 
received, among other decorations, a Silver Star and a Bronze Star for 
valor. Later he served in various command and staff positions in the 
U.S., Germany, Panama, culminating in a posting as Senior Military 
Advisor to the Arms Control and Disarmament Agency. He retired as a 
Colonel in 1996 after 28 years of service. Mr. Ciccolella is a graduate 
of the National War College and has an undergraduate degree from Auburn 
University and a graduate degree from Central Michigan University.
    Welcome to you, Mr. Ciccolella.

    Chairman Craig. Senator Allen has just arrived. I have put 
my statement in the record, Senator Allen. You are here. We are 
pleased you are here. We will allow you the introduction you 
have come to make.

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and it is my 
pleasure, Mr. Chairman and Members of the Committee, to 
recommend to you Mr. James P. Terry, otherwise known as Jim 
Terry, to this commission, in fact, as chairmanship of the 
Board of Veterans Appeals. Mr. Terry has an extensive legal 
background, as well as service to our country in the armed 
services. I also would say I am introducing him on behalf of my 
colleague, Senator John Warner, who is also on his way here.
    President Bush, Mr. Chairman, has nominated Mr. Terry for 
this position, and he does have outstanding qualifications. I 
would also note, Mr. Chairman, that you have been just a 
tremendous leader in trying to address the needs of veterans, 
and all of us salute you and your leadership and understand how 
many veterans are in need of services. Part of those services 
obviously are adjudication determinations of eligibility and 
claims, and there are just hundreds and hundreds of thousands 
of these claims, and Mr. Terry wants the same sort of 
treatment, fair treatment, prompt treatment of these claims and 
consideration for men and women who serve in our armed forces.
    He is a Virginian, lives in Virginia, graduated from the 
University of Virginia in 1968 in geochemistry and then 
followed a family heritage and joined the military, as has his 
brothers, his parents, his father I should say, and his sister. 
He was in the Marines. He had a distinguished record in the 
Marine Corps for 27 years. He served in Vietnam as a combat 
infantry officer where he received many distinguished honors, 
including the Purple Heart and Bronze Star. He later graduated 
from law school at Mercer University, served in the Marine 
Corps also as a judge advocate until his retirement as colonel 
in 1995.
    During his final 4 years in the Corps, Jim had the distinct 
honor to serve as legal counsel to the then Chairman of the 
Joint Chiefs of Staff, Colin Powell. He retired from the Marine 
Corps, but his service to our Nation did not stop. He 
subsequently served in the Department of Interior as Deputy 
Director of the Office of Hearings and Appeals and later as 
administrative judge at the Interior Department's Board of Land 
Appeals.
    In 2001, Jim left the Interior Department for his current 
position as Deputy Assistant Secretary of State for regional, 
global, and functional affairs within the Bureau of Legislative 
Affairs.
    I had the pleasure of talking with Jim before this, and 
what I liked was not just his record of caring about those who 
served in the military and his legal background, which is 
exceptional, it is that he said he wanted to get people moving. 
This Court of Appeals, so to speak, this Board of Appeals, is a 
major, major law firm and they have a tremendous volume of 
cases on their docket, and he said he wanted to get people 
moving and he wants to get the veterans appeals getting proper 
prompt action from that Board of Appeals. That is the right 
attitude with the right background.
    I believe some of Jim's family members are here, as well as 
friends from the Department of Interior. I believe his wife 
Michelle--is Michelle here? There you are far over there. Good 
to see you Michelle. His daughter, Kristen, is here and also 
Ambassador Niemczyk and his wife Peg are here. They don't let 
all the folks sit together, but at any rate, he has a lot of 
other friends from the Department of Interior and the 
Department of State who have come to support Jim.
    I thank you, Mr. Chairman, for your courtesy, your 
leadership, and I think that you will find that Mr. Terry is an 
outstanding, well-qualified nominee who you will want to, as 
usual, have swift action on this Committee and on the floor to 
get him on the job on this very important chairmanship on this 
Board of Appeals.
    I thank you again.
    Chairman Craig. Senator, thank you very much for taking 
time out of your schedule to come to introduce Jim Terry.
    Senator Allen. Thank you, Mr. Chairman.
    Chairman Craig. Before we proceed with both of these 
nominees, I will turn to Mr. Ciccolella who has been nominated 
to serve as head of the Labor Department's Veterans Employees 
and Training Services, an office which administers national 
programs to help veterans find jobs and also to protect the re-
employment rights of veterans who have returned from service. 
Currently, 200,000 servicemembers are leaving active duty each 
year, and for many, obtaining a job will be a critical step in 
successfully making the transition back into civilian life.
    Unfortunately, young veterans, many of them recently 
separated, experienced higher unemployment rates than non-
veterans, and in total, nearly 700,000 veterans of all ages are 
unemployed at any particular month. Obviously, there is 
important work to be done here, and I wanted the Committee to 
have the background of this important task.
    So as I turn to both of you for your opening statements, 
Mr. Terry, Mr. Ciccolella, do you have--we know that Mr. Terry 
has family with them, but we would give you the privilege at 
this time to introduce your family to the Committee.
    Mr. Terry.
    Mr. Terry. Thank you very much, Mr. Chairman. I am 
delighted to be able to introduce my wife of 35 years, the 
better part of me, Michelle, and my daughter Kristin, my 
youngest daughter who is a practicing attorney and a member of 
the Choate, Stuart, Hall law firm in Boston.
    Chairman Craig. Thank you.
    Mr. Ciccolella.
    Mr. Ciccolella. Thank you, Mr. Chairman. I would like to 
introduce my wife, Donna, of 33 years and also my extended 
family at work who are seated right here with the Veterans 
Employment Training Service. Thank you.
    Chairman Craig. Thank you very much.
    Mr. Terry, we are going to try to get at least one 
statement in before the next vote and maybe both of you, and 
then I am going to allow the Committee to stay open for any 
Members who wish to come and make comments and/or ask 
questions. We won't hold you terribly long, but we do want the 
Committee to have that opportunity. So, Mr. Terry, if you would 
start with your opening statement, please.

 STATEMENT OF JAMES P. TERRY, NOMINATED TO BE CHAIRMAN OF THE 
 BOARD OF VETERANS APPEALS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Terry. Thank you very much, Mr. Chairman, and I would 
like to acknowledge my appreciation for Senator Allen's very, 
very kind introduction.
    As I mentioned, I am here today with my bride of 35 years 
and my daughter, but I am also blessed to have our dear 
friends, Ambassador Jay Niemczyk and his wife Peg, and 
colleagues from my service with the Defense, Interior, and 
State Departments as well as my present colleagues from the 
Department of Veterans Affairs. I have some wonderful 
colleagues and friends here and I would like to acknowledge 
their presence.
    Sir, I am deeply honored to appear before you and as 
President Bush's nominee for the Chairman of the Board of 
Veterans Appeals, and I can assure you that if confirmed, I 
will work tirelessly to ensure that the board provides for fair 
and timely adjudication of appeals that our Nation's veterans 
and their families deserve. As a veteran of 27 years of active 
service myself, I consider my military experience to be the 
defining period of my life. It was in the military that I 
recognized, sir, the tremendous sacrifice made by the superb 
men and women who have committed themselves to the defense of 
this Nation.
    My commitment to those who serve this country is both deep 
and personal. My father was a Navy pilot during World War II, 
and my father-in-law, likewise, served with distinction in the 
Navy and was in Pearl Harbor on December 7, 1941. I had three 
brothers and a sister who were in uniform, as I was, during the 
Vietnam conflict.
    I have always viewed service to this Nation in whatever 
forum as an obligation and honor to be shared by all Americans. 
It is with this background that I totally commit to you that I 
will work tirelessly to ensure that the veterans law judges, 
the 56 veterans law judges, the 228 staff counsel, and the many 
administrative support personnel at Board of Veterans Appeals 
accomplish our mission to provide high quality, fair, and 
timely decisions in all matters before the board in as 
efficient and productive manner as possible.
    Mr. Chairman, as a final arbiter on behalf of the Secretary 
of all appeals and claims of veterans' benefits, the board has 
a very special responsibility to guarantee that the department 
has provided each appellant with a full, fair, and impartial 
review of their case. They must ensure that all due process and 
full consideration of the law has been provided, including the 
present decisions of the Court of Appeals for Veterans Claims 
and other Federal Courts. If confirmed, sir, I can assure you 
that I will work assiduously to see that the board meets that 
responsibility and we achieve total transparency in the way 
appeals are processed within the department. I will work 
cooperatively with those involved in the adjudication process, 
that is the Veterans Benefits Administration, the Veterans 
Health Administration, the Office of General Counsel, and 
especially the veterans service organizations, this Committee, 
and Members of Congress so that we can deliver the best and 
most timely service to America's veterans.
    This is indeed a momentous responsibility, Mr. Chairman, 
but I can assure that you that, if confirmed, I will uphold 
this trust on behalf of all our men and women in uniform and on 
behalf of all those who have served.
    Thank you, Mr. Chairman. I would be delighted to respond to 
any questions you might have.
    [The prepared statement of Mr. Terry follows:]

 Prepared Statement of James P. Terry, Nominated To Be Chairman of the 
     Board of Veterans Appeals, U.S. Department of Veterans Affairs

    Thank you, Mr. Chairman, Senator Akaka, and Members of the 
Committee--and thank you Senator Allen for those kind words of 
introduction.
    I am joined here today by my wife of more than 35 years, Michelle. 
She has been at my side for nearly all of my 37 years of Government 
service. I'm deeply grateful for her support, and she is my life. Also 
with us today is our youngest daughter Kristin, an attorney with 
Choate, Stewart, Hall in Boston. I am also honored to be joined today 
by our dear friends Ambassador Jay Niemczyk and his wife Peg, and 
colleagues from my service with the Defense, Interior and State 
Departments.
    I am deeply honored to appear before you as President Bush's 
nominee for Chairman of the Board of Veterans' Appeals. I can assure 
you, that if confirmed, I will work tirelessly to ensure that the Board 
provides the fair and timely adjudication of appeals that our Nation's 
veterans and their families deserve.
    As a veteran of 27 years of active service in the Marine Corps as 
an infantry officer and then as a judge advocate, my military 
experience represents the defining period of my life. It was while in 
the Marine Corps that I recognized the tremendous sacrifice made by the 
superb men and women who have committed themselves to the defense of 
this Nation.
    My commitment to those who served this country is both deep and 
personal. My father was a Navy pilot during World War II and my father-
in-law likewise served with distinction in the Navy and was at Pearl 
Harbor on December 7, 1941. My mother served as a designated Coast 
Watcher for the then-Department of War during the Second World War. 
During the Vietnam conflict, while I served as a Platoon Commander with 
the 1st Battalion, Third Marine Regiment in Vietnam, three of my 
brothers--Joel, Roy and Thomas--were also serving in uniform, as was my 
sister Jean.
    I have always viewed service to this Nation, in whatever form, as 
an obligation and honor to be shared by all Americans. Following my 
retirement from the Marine Corps, I served 6 years in the Senior 
Executive Service with the Department of Interior, and then rejoined 
General Powell for 4 years at the Department of State, having served 
earlier as his Legal Counsel while he was Chairman of the Joint Chiefs 
of Staff. Each assignment was challenging and rewarding. Now I look 
forward to this opportunity to continue to serve my country and 
particularly to serve veterans--those to whom we as a Nation owe such a 
great debt.
    It is with this background that I totally commit to you that I will 
work tirelessly to ensure the Veterans Law Judges, staff counsel, and 
administrative support personnel at the Board of Veterans' Appeals 
accomplish our mission to provide high quality, fair and timely 
decisions in all matters before the Board in as efficient and 
productive a manner as possible.
    As the final arbiter on behalf of the Secretary of all appeals in 
claims for veterans' benefits, the Board has a special responsibility 
to guarantee that the Department has provided each appellant with full, 
fair and impartial review of their case. It must ensure that all due 
process and full consideration of the law has been provided, including 
the precedent decisions of the United States Court of Appeals for 
Veterans Claims and other Federal courts.
    If confirmed, I will work assiduously to see that the Board meets 
that responsibility and that we achieve total transparency in the way 
appeals are processed within the Department. I will work cooperatively 
with all those involved in the adjudication process--the Veterans 
Benefits Administration, the Veterans Health Administration, the Office 
of General Counsel, the veterans service organizations, the Committee 
and Members of Congress--so that we deliver the best and most timely 
service to America's veterans.
     This is indeed a momentous responsibility. But I can assure you, 
Mr. Chairman, that if confirmed, I will uphold this trust on behalf of 
all our men and women in uniform and on behalf of all those who have 
served.
     Thank you Mr. Chairman, Senator Akaka, and Members of the 
Committee. May I respond to your questions.

                                 ______
                                 
  Responses to Written Questions for James P. Terry, Nominated To Be 
Chairman of the Board of Veterans Appeals, U.S. Department of Veterans 
                    Affairs from Senator Larry Craig

    Question 1. Have you had an opportunity to assess the tenure of the 
Honorable E. Dane Clark as Chairman of the Board? Do you see how your 
tenure would differ from his? Do you have a sense of what your 
priorities will be if you are confirmed?
    Answer. I had the pleasure of knowing Dane Clark as a Marine 
officer and serving with him in that capacity. Our total commitment to 
veterans is the same. My style of management, however, is a much more 
hands-on approach and I will be deeply involved in the day to day 
operations and decisionmaking of the Board. I am blessed with a superb 
Vice Chairman, Mr. Ron Garvin, and we will work well together in 
continuing to shape a cohesive and efficient organization that, I 
assure you, will be both productive and effective.
    I can say without qualification that what I have observed is that 
the Board is an organization composed of hard-working, dedicated 
employees who fully understand that their role is to serve America's 
veterans. We have a body of excellent attorneys and judges who 
represent the single greatest concentration of expertise in the field 
of veterans law. As Chairman, I will do all in my power to ensure that 
we get even better.
    Once confirmed, I will immediately do a bottom up review of the 
Board and its operations, see where improvements can be made, and work 
tirelessly to see that they are made.
    I have observed that many improvements to the Board's functioning 
have already been instituted, and these will be continued and enhanced. 
These include an effective in-house training program, the establishment 
of a permanent Director of Training position, and establishment of a 
highly effective Quality Review Office to constantly review the 
decisions of the Board.
    I will also work extremely closely with the heads of the Veterans 
Benefits Administration, the Office of General Counsel and the Veterans 
Health Administration to ensure the Department's message and service to 
all our veterans is cohesive and transparent. One of the ways we will 
do this is through our participation in TRIAD, a monthly meeting of top 
officials from the OGC, VBA, VHA and the Board that attempts to 
identify and resolve issues of mutual concern to each of our offices.
    Question 2. In reaching decisions on disability claims, the Board 
is required to provide the benefit-of-the-doubt to the veteran and to 
conduct proceedings in a non-adversarial manner. If you are confirmed, 
do you have a sense of what measures you would take to ensure that the 
culture at the Board fosters those pro-veteran policies?
    Answer. If confirmed, I will remain totally committed to the pro-
veterans policies that I have already seen very evident on the Board. 
The mindset of the attorneys and Veterans Law Judges I have spoken to 
(and I have spoken to most) indicates to me that their greatest 
priority is ensuring that veterans are well served and that their cases 
are fairly adjudicated, with a commitment to applying the ``benefit of 
the doubt'' rule on their behalf. I have had the opportunity over the 
past few weeks to read hundreds of Board decisions to familiarize 
myself with each of the issues that can arise before the Board. In each 
of these decisions, I have seen an attempt to rule in favor of the 
veteran where that is legally possible. Our Quality Review Unit is 
instrumental in ensuring this emphasis is maintained and I will work 
tirelessly to ensure the law is being applied fairly and 
compassionately.
    To maintain this positive mindset and prevent complacency requires 
constant training. An improved culture requires constant, intimate 
involvement by an organization's senior leadership. I assure you that 
this will occur.
    Question 3. In testimony recently provided by VA before this 
Committee, it was noted that BVA is attempting to reduce the number of 
``avoidable remands'' by working with the Veterans Benefits 
Administration and the Veterans Health Administration to identify the 
root causes of remands and to provide appropriate training. If you are 
confirmed, would you take steps to ensure that there is continued and 
improved cooperation between BVA, VBA, and VHA? How have your 
experiences provided you with the skills necessary to develop and 
sustain those types of collaborative relationships?
    Answer. Improved cooperation with these organizations will be among 
my highest priorities. In fact, we are involved now in continued 
cooperation through joint training efforts and this will be expanded. 
We will continue to maintain contact at the highest levels to ensure 
the mission needs of the Board and other VA organizations are being 
accomplished.
    With respect to remands, each time a case file must be returned by 
the Board to the Regional Office because it is not sufficiently 
complete to allow the Board to render a decision fair to the veteran, 
significant additional time is required both by the Board and the 
Regional Office. Effective training is critical here and we are 
participating with the VBA and the staff of the General Counsel to 
address key issues with Regional Office staff to ensure, to the extent 
possible, files are complete when they reach the Board.
    But this is not a one way street. Our Board must focus more 
diligently on searching each file for that evidence which will allow a 
decision to be rendered. If a decision can be properly issued with 
available evidence, we must do so, and do so promptly. Each case we can 
properly decide rather than remand to our Regional Offices is a service 
to our deserving veterans.
    I believe my leadership style and my experience provide the 
qualities needed to succeed in working with others--internally and 
externally. I am confident that I will have excellent and productive 
relations with both Admiral Cooper, the head of the VBA and Dr. Perlin, 
the head of the VHA, and the other senior leaders within the 
Department. My reputation both at DoD, Interior and at State was that 
of a positive leader committed to the mission with low ego needs and a 
lack of concern for who gets the credit. I intend to bring that 
successful approach to the Board of Veterans Appeals.
    Question 4. Under current law, attorneys are not permitted to 
receive compensation for representing claimants at the initial stages 
of the VA claims adjudication process. Do you have a sense of whether 
allowing attorneys into the process earlier would have an impact--
either positive or negative--on proceedings conducted before the Board?
    Answer. The Board process by law is a non-adversarial one, and the 
task of the Board is to ensure that all evidence within the file is 
fully and fairly considered and reviewed, with the benefit of the doubt 
given to the veteran in each instance. I worry that injecting an 
adversarial element in the VA claims adjudication process could result 
in challenges to meaningful evidence and objections to certain evidence 
that could be vital to a fair and reasoned determination. The 
introduction of counsel might also result in the requirement that rules 
of evidence and procedure be developed that could further delay the 
process. This could be significant in a process (to include RO 
adjudications and BVA appeals) that will consider approximately 800,000 
cases this year in the entire system.
    Having said that, I really need some time on the job to make a 
meaningful assessment. I do know that the veterans service 
organizations (VSOs) are doing what I view as a superb job of 
representation for any applicant seeking assistance at this time.
    Question 5. In a May 2005 report, the VA Inspector General found 
that the compensation paid for 100 percent PTSD ratings and for 100 
percent ratings based on individual unemployability is a primary factor 
in State-by-State variances in average compensation payments.
    It is my understanding that, in view of the IG report, VA Regional 
Offices across the country have been taking measures to improve 
consistency, especially for highly subjective ratings like those for 
PTSD and IU. If you are confirmed, do you envision the BVA implementing 
any particular measures in view of that IG report?
    Answer. I agree that variances in awards in PTSD and IU cases have 
significantly skewed the results of average compensation payments by 
State, especially PTSD. The demographics of the veterans in those 
States have also had an effect. By that, I mean that an older 
population of veterans, such as in Illinois and Indiana, who had 
service in WW II and Korea, have been less likely to file PTSD claims 
(although called shell-shock during those periods). That may be due to 
the stigma attached to such claims at the time or to the pride of these 
older veterans in simply getting on with their lives when they 
returned.
    Whatever the reason, everyone in the Department is extremely 
concerned that there is an apparent disparity in benefits with regard 
to certain States: e.g., Indiana, Illinois, Michigan and Ohio. We are 
increasing assets, increasing training at the ROs, and ensuring 
increased attention is paid to each of the ROs in these States and 
others like Colorado where the benefit rates are lower. One effort 
designed to assist in eliminating disparities is the development of 
specific standards for medical examinations to ensure each PTSD patient 
is reviewed in the same way (Compensation and Pension Examination 
Project).
    That is, by requiring examining physicians to review and examine 
patients using the same protocol, we hope to bring consistency to our 
rating process and eliminate disparities. As a result of the IG Report, 
during my stewardship we will give heightened attention to the appeals 
related to PTSD and IU concerns and ensure, to the greatest extent 
possible, we have consistent application of our regulations regarding 
their consideration for disability determinations. In that regard, we 
can best ensure consistency at BVA by training, quality assurance 
efforts, and consultation and cooperation with our partners in the 
adjudication process, VBA, OGC, VHA and the VSO's.
    Question 6. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee? Do you know of any other matter 
which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. No.
    Question 7. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that the information provided is complete, accurate, and provided in a 
form designed not to evade or deceive?
    Answer. Yes.
    Question 8. Do you agree to supply the Committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you may serve in the position for which you now seek confirmation?
    Answer. Yes.
    Question 9. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. Yes.

                                 ______
                                 
  Responses to Written Questions for James P. Terry, Nominated To Be 
Chairman of the Board of Veterans Appeals, U.S. Department of Veterans 
                 Affairs from Hon. Senator Daniel Akaka

    Question 1. I am concerned that the Board of Veterans Appeals (BVA) 
does not have enough employees to process appeals timely and 
accurately. Can additional hiring be anticipated this year? Will this 
be reflected in the President's Budget? If not, where will the funding 
for these employees come from?
    Answer. Although the Board does not anticipate hiring additional 
personnel during fiscal year 2006, the Board does have sufficient 
personnel to enable it to process appeals in a timely and accurate 
manner. Through the use of incentives and sound management, the Board 
has demonstrated in the past that that it can improve its performance, 
and the Board will continue to do so during the upcoming year.
    The Administration's fiscal year 2006 budget submission does not 
significantly increase the Board's budget allocation, which will remain 
at approximately $50 million. The personnel profile for the Board for 
fiscal year 2006 calls for 434 personnel. The currently authorized end-
strength for fiscal year 2005 for Board personnel is 440. Despite this 
reduction, we believe the Board's performance, as reflected by the 
VACOLS (Veterans Appeals Control and Locator System) data, will 
continue to improve in the same way it has done over the years. For 
example, in Fiscal Year 1994, the Board issued about 22,000 decisions. 
The Board's pending caseload stood at 47,000, and the measure of 
timeliness then used--average response time--was 781 days. By Fiscal 
Year 1998, the Board's timeliness markedly improved and the pending 
caseload was down to less than 30,000 cases. The Board issued 38,886 
decisions, and held 4,875 hearings. Appeals resolution time was 687 
days.
    In contrast, the Board issued 38,371 decisions in fiscal year 2004. 
The Board also conducted 7,259 hearings--a substantial increase from 
1998. Appeals resolution time decreased to 529 days. Cycle time (the 
time the appeal is at the Board) was reduced to 98 days. Cases pending 
at the end of fiscal year 2004 stood at 21,430. And the Board did this 
with 43 fewer FTEs than in 1998. The fiscal year 2005 performance, when 
finally closed out on September 30, 2005, will be similar.
    The Board made these improvements despite several significant 
challenges, including the impact of the Veterans Claims Assistance Act 
of 2000, and the initiation and termination of evidence development at 
the Board due to the decision of the U.S. Court of Appeals for the 
Federal Circuit in Disabled American Veterans v. Principi. There are 
several reasons for the significant increase in productivity over this 
period of time, including changes in procedures to increase efficiency, 
training, incentives, and sound management. As a result of these 
changes, the Board's Veterans Law Judges and counsel staff were able to 
increase productivity over historical levels by 20 percent for staff 
counsel, and 25 percent for the VLJs, while at the same time not 
sacrificing quality. The average number of decisions per employee 
increased from 49.9 in fiscal year 1994 and 80.5 in fiscal year 1998, 
to 87.8 in fiscal year 2004. The number of hearings held also 
increased, with video-conference hearings nearly doubling since 1998.
    Through incentives and sound management, the Board will continue to 
improve over past performance. It will do so by eliminating avoidable 
remands, strengthening infra-agency partnerships, writing shorter and 
more concise decisions, utilizing employee incentive mentoring and 
training programs, making judicious use of overtime, and by increasing 
the use of paralegals.
    The Board believes these measures will work to reduce the backlog 
and shorten the time it takes for a veteran to receive a well-reasoned 
and final Board decision. The Board also will continue working to 
develop new and creative solutions to the challenges faced in order to 
fulfill its statutory mission to hold hearings and provide timely, high 
quality decisions to the Nation's veterans and their families.
    Question 2. Can you explain BVA and its system for docketing cases? 
I understand that BVA generally decides appeals in the order in which 
they are received from VA regional offices (ROs). When a case is 
received from a regional office it is given a docket number. If that 
case is later appealed to the Court of Appeals for Veterans Claims and 
remanded back to BVA, it appears that BVA issues a new docket number. 
If that case is later appealed to the Court of Appeals for Veterans 
Claims and remanded back to the BVA, it appears that BVA issues a new 
docket number and that veteran goes to the back of the line at BVA 
rather than retaining his earlier docket number and receiving near 
immediate review. This can add as much as 3 to 5 years to the veteran's 
claim being resolved. Do you support remanded cases retaining their 
initial docket numbers in order to reduce lengthy waits for final 
decisions?
    Answer. When a decision of the Board is appealed to the Court, and 
then remanded to the Board, on remand the case is assigned the same 
docket number that it had when the case was previously considered by 
the Board. Similarly, if the Court remands a case to the Board and if 
the Board then remands that case to the originating agency on a 
specific issue and the same issue is ultimately returned to the Board, 
the original docket number is retained. The same is true where the 
Board, on its own, remands the case on a specific issue to the 
originating agency.
    However, by case law, where a case was originally remanded, for 
example, on the issue of service connection and is subsequently 
returned to the Board on a ``downstream issue''--i.e., one that had not 
been considered by the Board or Court in their decision--such as the 
disability rating or effective date assigned following an award of 
service connection, a new docket number is assigned by the Regional 
Office. A new docket number is assigned because the appeal is being 
made with respect to a completely different issue than that originally 
filed with the Board, and is initiated by the filing of a new Notice of 
Disagreement (NOD). The service connection claim is closed out on the 
Board's computerized tracking system as a grant of benefits and the new 
issue or issues are then separately identified with a new docket 
number. The docket number is automatically assigned by the computerized 
tracking system in accordance with the date that a substantive appeal 
has been received. The tracking system is unable to distinguish between 
new issues and so-called ``downstream issues.''
    VA has not been able to devise a technical tracking system to 
address this problem. VA also does not have the resources to manually 
screen all appeals to determine whether a case is being returned on a 
downstream issue, as we process nearly 40,000 appeals each year. 
However, when we are advised by the appellant or his or her 
representative that the returned case involves a ``downstream issue,'' 
the Board takes prompt action to manually change the docket number to 
that of the original appeal.
    Question 3. The claims process can be very lengthy and burdensome 
both for veterans and those processing claims. Do you have any 
suggestions for Congress to improve this process so the Board can 
adjudicate claims more efficiently and effectively?
    Answer. Unfortunately, until I am confirmed and have the 
opportunity to more carefully study the Board's operations and address 
its overall current and future needs with the Department and Board 
leadership, as well as any current legislative limitations on the 
effective operation of the Board of Veteran's Appeal, it is premature 
for me to comment on the specific legislative requirements to make the 
Board more effective and responsive to the needs of our veterans. I do 
promise, though, Senator Akaka, once confirmed and as soon as I have 
had the opportunity to carefully examine the legislative needs of the 
Board, I will arrange to meet with you and your staff to address those 
needs and provide whatever insights I have gained and any legislative 
suggestions I may have.

                                 ______
                                 
  Responses to Written Questions for James P. Terry, Nominated To Be 
Chairman of the Board of Veterans Appeals, U.S. Department of Veterans 
                   Affairs from Senator Patty Murray

    Question 1. Mr. Terry, I want to first thank you and your family 
for your service to this country. I am worried about our current 
veterans from Iraq and Afghanistan not having access to the disability 
compensation they deserve. What steps do you think the Department of 
Defense, the VA and others need to make to ensure that those veterans 
get the compensation they deserve? Do you have concerns that veterans 
are getting compensation they do not deserve and are not entitled to?
    Answer. Thank you Senator Murray for your kind words. I believe 
that the Department of Defense and VA share a deep concern that those 
veterans returning from our current battlefronts, as well as all those 
who served our country in uniform, receive all the benefits to which 
they are entitled. A number of programs are in place to assist those 
transitioning from active service to veteran status to receive the 
benefits to which they are entitled. These include the Transition 
Assistance Program (TAP) and Disabled Transition Assistance Program 
(DTAP), which are administered by the Veterans Benefits Administration 
in conjunction with the Department of Defense.
    I believe the function of the VA's adjudication system is to ensure 
that all appellants receive the benefits to which they are entitled. As 
you know, no system is perfect. Sometimes, veterans do not get the 
benefits to which they are entitled and, at times, a few get benefits 
to which they are not entitled. The appeals process exists to see that 
a disinterested tribunal takes another look at the case in which a 
benefit was denied and that any error is corrected. The issue of an 
erroneous grant of benefits generally is not seen during appellate 
review unless those benefits are severed. Hence, to directly answer 
your question, given the frailty of human nature, some veterans may be 
receiving benefits to which they are not entitled.
    That said, the Department is working hard to prevent erroneous 
payments by identifying systemic problems and by training adjudicators 
to avoid repeat errors.
    Question 2. Mr. Terry, 2 months ago in my office we were discussing 
the effects of PTSD on veterans. We were talking about the mental 
health disability claims being made and you said that your father went 
off to war and came back home to work on your farm. And then stated you 
went off to war and came back. And then you said that your father was 
fine when he came back and you were fine when you came back. Can you 
clarify what you meant by that comment?
    Answer. I stated that it appears from the May 19, 2005 IG Report 
that the World War II generation of which my father was a part did not 
file nearly the number or percentage of PTSD claims (shell-shock at 
that time) as subsequent generations have, although the stress of war 
was equally applicable to those brave Americans. Part of the rationale 
for the smaller number of such claims for these older veterans may have 
been the stigma attached to mental afflictions at that time. Those 
States with a higher percentage of PTSD claimants tend to have a much 
higher per capita benefit payment rate than those with few PTSD 
claimants. This may explain why the States with the high demographics 
of World War II and Korean War veterans, like Illinois, Indiana, 
Michigan and Ohio, for example, do not have as high a benefit payment 
rate as some other states. If confirmed, I will ensure that the Board's 
Veterans' Law Judges fairly adjudicate all PTSD claims. Those veterans 
who have PTSD as a result of an in-service stressor are entitled to 
receive compensation from VA and I will strive to ensure they do.
    I mentioned to you that I had been severely wounded in Vietnam but 
that I had received excellent care and that I was fine.
    Question 3. I asked you to explain what you meant during that 
conversation in May and you stated that in the latest VA Inspector 
General's Report--the May 19, 2005 VA Inspector General's Review of 
State Variances in VA Disability Compensation Payments--the Inspector 
General's Office stated that there was a trend toward veterans with 100 
percent PTSD to stop seeking VA Medical Care for their ailments once 
they received 100 percent disability compensation. Can you clarify for 
this Committee what you meant by that statement?
    Answer. One of the concerns that senior leaders in the Department 
have for all claimants seeking medical benefits is the desire to ensure 
that they are successfully treated for their disabilities and that 
where possible, these veterans can return to productive healthy lives. 
One concern noted in the May 19 IG report was the finding that a large 
percentage of veterans, having been determined to be 100 percent 
disabled as a result of PTSD, cease taking advantage of the treatment 
and continuing VA medical care that is available to them. This is a 
major concern if we are truly concerned about our continuing obligation 
to provide effective care to our disabled veterans.
    Question 4. Mr. Terry, after our discussion, I was left with the 
impression that perhaps you did not consider PTSD to be as pressing a 
healthcare need as our veterans' physical injuries. I'd like to hear 
you clarify for everyone here your views on PTSD. Do you believe that 
veterans who suffer from PTSD deserve disability compensation equal to 
compensation for physical injuries?
    Answer. Senator Murray, I am truly sorry if I left you with that 
impression as it was certainly not my intent. I believe that all 
disabilities incurred in or as a result of military service are of 
equal concern and all must be fully and appropriately compensated. I 
believe that PTSD is one of the most important of our health care 
concerns, and one only has to look at the number of claimants and the 
severity of their disabilities to reach this conclusion. All 
disabilities, whether mental or physical, are compensated based on 
their severity and how they affect a veteran's ability to earn a 
living. Generally, this is determined by comparing the manifestations 
of the disability with the criteria in the applicable regulations, also 
known as the Schedule for Rating Disabilities. Where the disabling 
effects of a disability or disabilities are not adequately compensated 
under the Schedule for Rating Disabilities, an additional or extra-
scheduler rating may be assigned. As I'm sure you are aware, the rating 
criteria provide for a maximum evaluation of 100 percent for 
psychiatric disorders, which is greater than the scheduler rating for 
many physical disorders, including, for example, disabilities such as 
the loss of a leg. I believe that this reflects the fact that a 
physical disability is often easier to overcome than a psychic trauma, 
which may affect every aspect of a person's life and severely limit 
their employability.
    Question 5. Mr. Terry, what lessons do you think we can learn from 
our current appeals process that may help prevent our current soldiers, 
sailors, airman and marines from having to go through the same grueling 
appeals process 20, 30, or 40 years from now?
    Answer. We all agree that the appeals process takes too long. We 
need to identify where the delays are, what is causing them and what 
remedial steps are needed to improve the process while still 
safeguarding veterans' rights. We must ensure that our adjudication 
personnel are thoroughly trained and have the resources to do their 
jobs. It is also important to have our veterans thoroughly examined at 
the time of discharge to assist them with their application for service 
connected disability benefits. I know VBA, VHA, and the Board are 
working on examination protocols to ensure consistency and accuracy 
with physical exams. I will look closely at that program to see if 
additional improvements can be implemented. I am similarly aware that 
BVA and VBA have been developing corrective training programs that are 
being aggressively delivered. I intend to build on that tradition. At 
this point, however, until I am confirmed and have the opportunity to 
more carefully study the entire VA adjudication process, including the 
Board's operations and current and future needs, it is premature for me 
to comment on the specific elements of these initiatives to reform the 
adjudication process to make it more effective and responsive to the 
needs of our veterans. Senator Murray, once I have been confirmed and 
as soon as I have had the opportunity to carefully examine the 
adjudication process, I will be happy to meet with you or your staff to 
discuss whatever insights I have gained regarding possible reforms for 
its improvement.
    Question 6. What steps will you take to reduce the current backlog 
of appeals, currently at 24,846 cases, that are pending at the BVA 
while maintaining and or improving the quality of BVA decisions?
    Answer. Although I have had only a short time to directly acquaint 
myself with the Board, I am very impressed with the dedication, 
professionalism and commitment to our Nation's veterans that typify the 
Board's employees. I can assure you, when confirmed, the Board will 
continue working to develop new and creative solutions to the 
challenges faced in order to fulfill its statutory mission to hold 
hearings and provide timely, high quality decisions to the Nation's 
veterans and their families.
    The Board has come a long way. In Fiscal Year 1998, the Board's 
pending caseload stood at 30,000 cases. That year, the Board issued 
38,886 decisions, and held 4,875 hearings. Appeals resolution time was 
687 days. In fiscal year 2004, the Board issued 38,371 decisions, 
conducted 7,259 hearings--a substantial increase from 1998--and appeals 
resolution time decreased to 529 days. Cycle time (the time the appeal 
is at the Board and not being reviewed by the veteran's representative) 
was reduced to 98 days. Cases pending at the end of fiscal year 2004 
stood at 21,430. The Board did this with 43 fewer FTEs than in 1998. 
The fiscal year 2005 performance, when finally closed out on September 
30, 2005, will be similar.
    The Board made these improvements despite several significant 
challenges, including the impact of the Veterans Claims Assistance Act 
of 2000, and the initiation and termination of evidence development at 
the Board due to the decision of the U.S. Court of Appeals for the 
Federal Circuit in Disabled American Veterans v. Principi.
    The Board did not do this alone, but had much help from (1) the 
Congress, providing unqualified support for veterans and their 
families, (2) veterans service organizations (VSO's), which represent 
about 85 percent of all appellants before the Board, (3) the VA 
leadership, that supports improvements in the appeals process to ensure 
that veterans receive timely and quality decisions, and (4) the staff 
at the Board, including the 56 Veterans Law Judges, 228 counsel, and 
154 administrative support staff. Through their efforts, productivity 
increased, over historic levels, by 20 percent for staff counsel, and 
by 25 percent for the VLJs. The number of hearings held has also 
increased, with videoconference hearings nearly doubling since 1998. 
The average number of decisions per employee increased from 80.5 in 
fiscal year 1998, to 87.3 in fiscal year 2004. Decision quality at the 
Board has improved from an 88 percent error free rate in 1998 to a 90 
percent rate in 2005, and, as noted above, the Board's cycle time is a 
little over 3 months.
    If confirmed, I will ensure that the Board continues to improve 
over past performance. We will do so through the use of appropriate 
incentives and sound management. We will do so by eliminating avoidable 
remands, strengthening infra-agency partnerships, writing shorter and 
more concise decisions, utilizing employee incentives, mentoring and 
training programs, making judicious use of overtime, and by increasing 
the use of paralegals.
    I believe that these measures will be successful in reducing the 
backlog and shortening the time it takes for a veteran to receive a 
well-reasoned and final Board decision.
    Question 7. Mr. Terry, Veteran Service Organization (VSO's) 
represent a large number of BVA appellants. What is your experience 
with the VSO community and what steps will you take to foster/maintain 
a professional working relationship between BVA staff and the VSO 
representatives?
    Answer. The Veterans Service Organizations (VSOs) are the voices of 
America's veterans. They provide free, high quality representation to 
about 85 percent of appellants before the Board. Although they are not 
lawyers, they are experts in veterans law and their success rate 
reflects this--in fact, it meets or exceeds that of private attorneys.
    The Board enjoys an excellent working relationship with the VSOs, 
both in the field and with those that have appeals units that are co-
located at the Board's offices in Washington. Board personnel interact 
with VSO representatives on a daily basis. We have quarterly meetings 
with the VSO representatives, as well as members of the private bar 
that wish to attend, to discuss issues of VSO concern, answer questions 
and advise them of developments in BVA procedures and policies.
    I can assure you, Senator Murray, that if confirmed, I will ensure 
that this relationship will continue. Again, if confirmed, I will meet 
with the leaders of the major VSO's to discuss how we can work together 
to see that we will continue to work together for the benefit of the 
veterans we both serve.
    Question 8. Mr. Terry, what steps will you take to reduce the 
number of BVA decisions that are remanded by the Court of Appeals for 
Veterans Claims (CAVC) due to BVA deficiencies?
    Answer. Senator Murray, if confirmed, I will do all in power to 
reduce avoidable remands, both those from the Court of Appeals for 
Veterans Claims (CAVC) to the Board and those from the Board to the VA 
Regional Offices. I believe that the best approach to ensure that we 
get it right the first time is through training. The Board has a very 
robust training program in place. It involves mentoring and developing 
new counsel and judges, periodic training for all professional staff on 
new and challenging areas of veterans law, and substantive training in 
both veterans law and legal writing. We have cooperative training 
endeavors with the Office of General Counsel, the Veterans Benefits 
Administration, and the Veterans Health Administration to improve the 
competence of adjudicators throughout the VA system. As Chairman, I 
would continue and expand our efforts in this critical area.
    One cautionary note--while some CAVC remands are the result of 
Board error, many are not. Frequently, court remands are based on 
changes in the law from that which was in effect when the BVA decision 
was rendered. An example is the Holliday decision, which created an 
avalanche of Court remands directing VA to comply with the Veterans 
Claims Assistance Act (VCAA), which was not in existence at the time 
the BVA decision was made. Others are based on a difference in judgment 
between the reviewing judge at the CAVC and the deciding VLJ at the 
Board as to the interpretation of the law, whether the reasons or bases 
for the Board decision were adequately explained or whether all due 
process was accorded. About 60 percent of remands are never seen by a 
CAVC judge, but represent actions by the attorneys involved in the case 
to dispose of the appeal. Finally, given the delays in the system, the 
CAVC is reviewing BVA decisions that may have been issued years ago.
    The Board does track the reasons for each Court remand. While we 
have much to learn from remands, we need a more immediate source of 
feedback to improve our quality. The Board is working cooperatively 
with VA's Office of General Counsel, particularly Professional Staff 
Group VII, which represents the Secretary before the Court, 
Professional Staff Group II, which handles Compensation and Pension 
issues, and VBA to see what we can do to avoid remands whenever 
possible from the CAVC. This is an extension of the avoidable remand 
project that is ongoing with the Veterans Benefits Administration.

                                 ______
                                 
  Responses to Written Questions for James P. Terry, Nominated To Be 
Chairman of the Board of Veterans Appeals, U.S. Department of Veterans 
                    Affairs from Senator Ken Salazar

    Question 1. Colorado Average Benefit. A recent VA Inspector General 
report found significant differences in compensation payments across 
the States. Colorado is one of those that falls below the national 
average. Veterans in Colorado get an average of $4000 less than 
veterans in New Mexico do. Why. What steps do you propose in response 
to the report and specifically, what can the VA do to improve the 
situation in Colorado?
    Answer. The compensation determinations which were the subject of 
the IG comparison are made at our Regional Offices (ROs) of the 
Veterans Benefits Administration (VBA) in each of our States and in 
certain of our territories (e.g., Guam and Puerto Rico), which are 
under the authority of the Under Secretary for Benefits. The Board of 
Veterans' Appeals can only influence these determinations if they are 
appealed to the Board and the Board overturns the RO determination and 
grants the benefits sought.
    The statistics referred to place Colorado at 34 of 50 States for 
fiscal year 2004 with an average payout of just under $8000 ($7,944) 
per veteran in fiscal year 2004. The national average was $8,378. New 
Mexico ranked first at $12,004. The May 2005 IG Report found that a 
number of demographic and benefit rating factors help explain the 
variances in State average annual disability compensation payments. One 
of the most significant,--the age of a veteran receiving benefits--is a 
variable that the VA has virtually no control over. Statistics do show, 
however, that States with a larger percentage of older veterans who 
served in the Second World War and the Korean Conflict tend to receive 
less in benefits because they tend not to request benefits related to 
psychiatric trauma. For whatever reason, veterans from these conflicts 
tended to return to their homes and resume their lives without 
consideration of post-traumatic stress claims (called shell-shock 
during those conflicts). PTSD claims make up a significant percentage 
of claims from recent era veterans, to include Vietnam and the first 
Gulf War. In fact, data indicates that Vietnam veterans receive, on 
average, $2328 more in annual compensation payments than veterans in 
the next highest period of service. New Mexico has 41 percent of its 
veterans receiving benefits from the Vietnam period, while Colorado has 
32.5 percent. Moreover, New Mexico has 18.2 percent of its total 
compensation recipients in receipt of compensation for PTSD, while 
Colorado has only 6.7 percent.
    Other factors identified by the IG Report included the rate at 
which veterans receiving disability submitted new disability claims 
(those States where veterans receiving benefits submitted additional 
claims received greater compensation), the period of service (Vietnam 
``VETS'' tend on average to receive greater benefits because of 
extensive PTSD awards), whether the disability claimants had dependents 
(those with dependents received more), and whether the recipient had a 
number of service connected disabilities, vice a single claimed 
disability (the more disabilities, the higher the average disability 
payment). In each of these areas, New Mexico ranked near the top and 
Colorado in the middle.
    The key to ensuring all Colorado citizens are treated fairly is to 
ensure that every RO in each State is providing the same message to 
every veteran and providing the same standard when assessing their 
claim. The VBA is constantly providing training to its ROs across the 
country to ensure that the same rating factors, the same application of 
the factors to disabilities reviewed, and the same assessment 
techniques are used consistently in each RO.
    The Board of Veterans Appeals is a participant with VBA in this 
process as we have consistently utilized attorneys and Veterans Law 
Judges, when they visit the various ROs to conduct Travel Board 
hearings, to spend a portion of their time sharing information with 
staff personnel at the ROs and providing any desired training that 
could prove helpful to their adjudication process. We are also 
participating with VBA and the Office of General Counsel to provide 
broadcast training to all the ROs. We are participating in a joint 
effort with VBA and the Veterans Health Administration to develop a 
comprehensive protocol for examinations for PTSD and other psychiatric 
disorders to ensure the same standards are applied in each such 
examination. We are committed to ensuring, to the extent possible, the 
claims adjudication process is totally transparent and consistent 
across State lines.
    Question 2. Mental Health Variance. One of the key factors 
identified in the O.I.G. report was the fundamental subjectivity of 
claims decisions in certain areas, such as mental health and Post 
Traumatic Stress Disorder. What steps do you propose to improve 
training and communication across the system to reduce this variability 
and improve consistency?
    Unlike certain physical disorders that may have clear-cut 
manifestations, the evaluation of psychiatric disorders often involves 
a significant element of judgment. While attempts have been made to add 
a greater degree of objectivity into the evaluation process, such as, 
for example, by the 1996 revisions of VA regulations for the evaluation 
of psychiatric disorders, a subjective element still remains.
    I agree that communication and training are the best approach to 
ensuring consistency throughout the adjudication process. We need to 
focus on these issues as part of our continuing monthly ``Triad'' 
meetings with the Veterans Benefits Administration (VBA), the Office of 
the General Counsel (OGC), and the Veterans Health Administration 
(VHA). In this way, we may design appropriate vehicles for training for 
all those involved in the adjudication system. These efforts would 
continue our ongoing joint satellite broadcasts to BVA and VBA, as well 
as the ongoing CPEP (Compensation and Pension Examination Project), 
which is a joint effort to train the medical professionals involved in 
the compensation examination process. The Board would continue its 
training of VBA and VHA personnel during trips to the Regional Offices 
to conduct Travel Board hearings, as well as our comprehensive program 
of in-house training for our judges and staff counsel.
    Question 3. Incentives for Performance. This Committee has heard a 
number of suggestions for reform of the adjudication process. One of 
those is setting time limits for each stage of the adjudication and 
appeals process. What is your reaction to that suggestion? What are 
other suggestions do you have for moving the administrative process 
forward and creating incentives for high performance?
    The Board has in place a robust program for providing incentives 
for high performance. These include participation in a variety of VA, 
OPM and other training programs, financial incentives, and public 
recognition for a job well done. We believe that such incentives 
contributed to the Board's success in increasing productivity over 
historic levels by about 25 percent for our Veterans Law Judges and 20 
percent for our staff counsel. If confirmed as Chairman, I certainly 
will continue and improve on this highly successful program.
    Unfortunately, until I am confirmed and have the opportunity to 
more carefully study the entire VA adjudication process, including the 
Board's operations and current and future needs, it is premature for me 
to comment on the specific initiatives to reform the adjudication 
process to make it more effective and responsive to the needs of our 
veterans. At present, the Board's cycle time--the time it takes the 
Board to issue a decision from its receipt of the file (excluding the 
time taken for review by the appellant's representative)--is about 100 
days. The setting of a time limit for this stage of the process would 
appear to be unnecessary. Furthermore, I am at a loss to speculate as 
to the remedy for a failure to meet time limits. Certainly, neither the 
Board nor the VBA would be permitted to grant benefits if the evidence 
of record does not support such action. This is an issue I must 
consider if confirmed. I do promise, though, Senator Salazar, once 
confirmed and as soon as I have had the opportunity to carefully 
examine the adjudication process, I will be happy to meet with you or 
your staff to discuss whatever insights I have gained regarding 
possible reforms for its improvement.
    Question 4. Simplifying the Appeals Process. There have been a 
number of suggestions for simplifying the remanding process and 
streamlining the appeals process. What is your response to proposals to 
place Administrative Law Judges in Regional Offices to decentralize the 
Board's decisionmaking authority? In a perfect world, what would you 
recommend?
    Answer. I do not see the merit in the proposal to place BVA's 
Veterans Law Judges in VA Regional Offices (ROs). In fact, I think it 
is a bad idea.
    The existing appeals process, with layers of review, was 
established, in part, to promote claimant confidence in the decisions 
reached on claims by ensuring fairness and integrity. Decentralization 
or regionalization of the Board by placing VLJs at the ROs could affect 
the appearance of Board independence by creating a perception in the 
minds of appellants and their representatives that the Board is an 
extension of the RO and not a separate and independent body that exists 
to fairly and impartially consider their appeals.
    Decentralization or regionalization would also pose substantial 
challenges to BVA in maintaining the efficiency of its operations. 
Given the rapid changes in veterans law and the complexity of the VA 
disability system, it is advantageous for VLJs to be able to function 
in a collegial environment where they have the opportunity for a quick 
and free exchange of ideas and information. The ability of VLJs and 
counsel to instantly communicate and exchange views enables the Board 
to quickly adapt to changes in the law. This kind of environment 
fosters consistency in understanding and application of the law. 
Regionalization of the Board will also create a host of logistical 
problems that do not exist in a centralized environment. 
Regionalization could cause a need for additional expenditures to 
provide necessary support services and legal research resources at 
multiple locations. We would also predict difficulties managing the 
case flow to and from VLJs and difficulties in conducting quality 
reviews.
    It is hard to understand exactly what improvements would result 
from basing VLJs at Regional Offices. VBA Decision Review Officers and 
Rating Specialists are sufficiently qualified to determine whether 
necessary development has taken place or whether legal requirements 
have been met, and improvements in the quality of RO claims 
adjudication can be achieved by training and quality review. In fact, 
VBA and BVA have recently developed a plan to reduce avoidable remands. 
This plan includes training, better documentation of certain 
determinations in the claims folder, better attention to certification 
of appeals by VBA Regional Office appeals staff, and some changes in 
guidance.
    At this point, as I noted in my response to the previous question, 
until I am confirmed and have the opportunity to more carefully study 
the entire VA adjudication process, it is premature for me to suggest 
specific initiatives to streamline the system. I can assure you that VA 
will carefully consider all available options for improvement in order 
to provide the best possible service to and ensure the rights of our 
Nation's veterans and their families. Again, Senator Salazar, once 
confirmed and as soon as I have had the opportunity to carefully 
examine the adjudication process, I will be happy to meet with you or 
your staff to discuss whatever insights I have gained regarding 
possible approaches to streamlining the appeals process.

    Chairman Craig. Mr. Terry, thank you very much.
    Now we turn to you, Mr. Ciccolella, nominated to be the 
Assistant Secretary of Labor for Veterans Employment and 
Training. Please proceed.

 STATEMENT OF CHARLES S. CICCOLELLA, NOMINATED TO BE ASSISTANT 
SECRETARY FOR VETERANS EMPLOYMENT AND TRAINING, U.S. DEPARTMENT 
                            OF LABOR

    Mr. Ciccolella. Thank you, Senator Craig. Thank you and the 
Committee for considering my nomination. I want to thank all 
the Members of the Senate Veterans' Affairs Committee because 
you always have been very responsive to our budget requests and 
any other issues that have come up where we have needed 
assistance from the Congress, both on the House side and the 
Senate side.
    As you know, sir, I am joined by my wife Donna of 33 years. 
I am also joined by a number of the professional staff at the 
Veterans Employment Training Service at the Department of 
Labor. These are dedicated veterans themselves. We work pretty 
tirelessly to make sure that veterans receive priority service 
in the labor exchange.
    I am very honored to be nominated for this position. Like 
Jim, my family has a long tradition of military service. My dad 
was a Major General in the Army and fought in World War II, 
actually captured General Von Rundstedt at the end of the war. 
My father-in-law and my brother-in-law both served in the Navy, 
my dad and my father-in-law in World War II and Korea and my 
brother-in-law saw action in Vietnam, as I did, and as my two 
brothers also did in Vietnam. We were all commissioned as 
infantry officers.
    So the values of the military have really defined our 
lives, and that is why it is an honor for me to be nominated to 
be the Assistant Secretary for Veterans Employment and 
Training. If the Senate confirms my nomination, it will be my 
privilege to lead this organization.
    I have been very fortunate to have been the Deputy 
Assistant Secretary of ``VETS,'' or the Veterans Employment 
Training Service, for the past 4 years. In that time, I think 
we have made some very good progress. We still have a long way 
to go. In order to improve our entered employments and our 
retention rates, we simply must better integrate the services 
of the veteran employment representatives that are hired by the 
States within the Workforce Investment System.
    The Workforce Investment System is a $15 billion investment 
every year. There are 19 Federal programs involved in that and 
veterans receive priority of service in each of those programs, 
but it is a big matter of making certain that our veteran 
employment representatives understand that and also that those 
in the workforce system understand that. Secretary Chao and the 
President, the Veterans Employment Training Service, and all of 
the partners in the one-stop career centers are working very 
hard to make this a very integrated service.
    Also, I think it is very important, and you mentioned the 
group of young veterans who are recently separated, 
particularly that age cohort of 20 to 24, we need to focus on 
them because they do have a higher rate of unemployment. We 
have looked very carefully at the reasons for that, and there 
are some reasons for it, but we have got to address that 
problem and we need to address it in the transition programs. 
We also need to look at a change in the way business has been 
done with the reserve component units, and I know you have the 
116th Brigade in Idaho and other Senators have a number of 
units in the Guard and the Reserve in their states who have 
deployed to Iraq. These individuals have deployed for 6 months 
or a year or more, and when they come back, they are assured 
and the law provides for their jobs back, not only their jobs, 
but the jobs that they would have had but for the military 
service.
    We have done a very good job in getting the word out about 
the Uniform Services Employment and Re-employment Rights Act, 
servicemembers' rights and the obligations of the employers, 
but we need to do a better job and we need to look at the 
requirements for the Guard and Reserve with regard to their 
transition, because many of them come back and they have got 
higher levels of skills. They have a tremendous amount of 
management experience. In many cases, they have great 
leadership skills now, and so they want to change jobs, but in 
a sense, they may be first-time or second-time entrants into 
the workforce and need a little bit of help with their 
networking skills and their resume writing.
    So we are responding now to the State Adjutant Generals on 
an as-needed basis and we are working with the Defense 
Department to make sure that we come up with a program that 
addresses their needs.
    Finally, Mr. Chairman, we need to focus our most intensive 
efforts on those who are seriously injured. We have 13,000 
servicemembers from the Iraqi conflict who are injured. 
Eighteen hundred or more are seriously injured. We have 482 
amputees. I know that the Senators and yourself have been out 
to Walter Reed and you have seen these young folks. They don't 
see themselves as being disabled. We need to make sure that 
there is a path and a life for them and that they have 
meaningful jobs and meaningful careers.
    In my lifetime, I have never seen soldiers and veterans 
held in higher esteem. I think we have a tremendous opportunity 
today to ensure that the level of service that is provided to 
veterans with regard to employment can be raised to a much 
higher bar. We have the commitment of the Secretary of Labor, 
and the entire Labor Department. I know we also have the 
commitment of the Department of Veterans Affairs, the 
Department of Defense, and the Department of Homeland Security 
to make that happen.
    I would just conclude by telling you, Mr. Chairman, I am 
very honored to have been nominated by President Bush for this 
position, and if confirmed by the Senate, I pledge my full 
cooperation with the Senate, my responsiveness to both the 
Senate and the House, Veterans Committee and my full dedication 
to this job.
    [The prepared statement of Mr. Ciccolella follows:]

Prepared Statement of Charles S. Ciccolella, Nominated To Be Assistant 
  Secretary for Veterans Employment and Training, U.S. Department of 
                                 Labor

    Good morning Chairman Craig, Ranking Member Akaka, and Members of 
the Committee:
    Thank you for the opportunity to appear before the Committee today. 
I thank the Committee for considering my nomination and for the 
courtesies that have been extended to me.
    I also thank all members of the Senate Veterans' Affairs Committee 
for their effective oversight of the Veterans' Employment and Training 
Service. This Committee and the Congress have always supported our 
budget requests and you have acted on important legislation that has 
benefited veterans and transitioning military members.
    I am joined today by my wife Donna. I am very fortunate and deeply 
grateful for her wisdom and her support for the past 33 years of our 
marriage, and she is my closest adviser.
    Donna and our daughter Connie always allowed and helped me pursue 
my passion for serving my fellow soldiers when I was in the military. 
Today, both Donna and Connie have their own careers in government 
service, but they support me in the same way in my efforts to serve our 
nation's veterans and transitioning service members, many of whom have 
not been as fortunate as I.
    I'm speaking especially about those who come back from the military 
with serious injuries and disabilities. I'm speaking about our veterans 
who have barriers to employment, including those who have become 
homeless.

                      I AM HONORED TO BE NOMINATED

    My family has a long a tradition of military service to our 
country. My father was an Infantry officer who fought in North Africa 
and Germany in World War II, and later rose to the rank of Major 
General. My father in law served in the Navy and saw action in both 
World War II and Korea. My brother in law served in the U.S. Navy and 
saw action in Vietnam. My two brothers and I each were commissioned in 
the Infantry through Army ROTC. Each of us is a combat veteran of 
Vietnam and each rose to the rank of Colonel.
    The values of the military have defined our lives. We know 
firsthand the unwavering commitment, professionalism and honor with 
which American soldiers serve. We are a family with well over 100 years 
of military service. We understand the blessings of freedom and the 
sacrifices made by our men and women in uniform. We know and love our 
fellow soldiers and veterans. They are the best of America.
    That is why it is such an honor for me to be nominated by President 
Bush to be Assistant Secretary of Veterans' Employment and Training, so 
I may continue to build on the success of this Administration in 
providing the highest quality of employment services to our Nation's 
veterans.
    If the Senate confirms my nomination, it will be my privilege to 
lead the Veterans' Employment and Training Service. I pledge my full 
commitment to helping transitioning military members and veterans find 
better jobs and the training needed for those jobs.
    That is, after all, what the Department of Labor's Veterans' 
Employment and Training Service (``VETS'') is charged with doing--
helping veterans and transitioning servicemembers with the resources 
and services they need to succeed in the 21st century workforce. 
``VETS'' is a small agency, with a very big job.

        GOALS FOR THE VETERANS' EMPLOYMENT AND TRAINING SERVICE

    I have been fortunate to have served as the Deputy Assistant 
Secretary of ``VETS'' for the past 4 years. We have made much progress 
in those 4 years, but challenges remain. With the help of the ``VETS' 
'' professional staff, and the collaboration of the Departments of 
Veterans Affairs, Defense, and Homeland Security, we will meet those 
challenges.
    If confirmed by the Senate, I will strive to achieve three primary 
goals:
    <bullet> To better integrate the services of the Disabled Veterans 
Outreach Program (DVOP) specialists and Local Veterans Employment 
Representatives (LVER) in the One Stop Career Centers. This will 
require better training for our DVOPs and LVERs and it will result in a 
higher quality of employment services to veterans by the entire Career 
One Stop System.
    <bullet> To improve transition assistance services for Active Duty, 
Reserve and National Guard members who are moving from the military to 
civilian life. We also must continue to ensure all servicemembers and 
veterans understand their employment and reemployment rights.
    <bullet> To focus our intensive employment services and personal, 
face to face assistance for those service members who are recently 
separated from the military--and for those veterans who need our help 
the most--those who have been seriously wounded or injured and those 
with significant barriers to employment, including homeless veterans.
    In working to achieve each of these goals, we must focus on how 
better to reach employers so they are actively involved in making the 
veteran employment connection.

                          VISION FOR ``VETS''

    These are my goals and they are actually continuing goals for me. I 
understand the enormous responsibility of making sure we achieve these 
goals and get this right. My vision for the Veterans' Employment and 
Training Service is, and has been, to change the manner in which 
employment and training services are delivered to veterans. We want to 
improve upon the traditional idea of service delivery by embracing a 
21st century model that is focused on equipping veterans with the 
resources they will actually need to be successful in their chosen 
career field.
    This vision is widely shared in the Department of Labor. Secretary 
Chao and the Labor Department are working hard to advance and support 
the public workforce system's provision of priority of service to 
veterans through education, outreach and better services. We are 
working hard with the State Workforce Agencies to expand the number of 
veterans who use these services, and to ensure they have access to the 
full array of resources.

             WE ARE MAKING PROGRESS, BUT CHALLENGES REMAIN

    Four years ago, approximately 3 in 10 veterans using the workforce 
system were being placed into jobs. Today, nearly 6 in 10 are entering 
employment. We have extended the highly successful Transition 
Assistance Program (TAP) employment workshop to serve servicemembers 
separating overseas. We are also beginning to provide those services to 
returning guard and reserve members where and when requested.
    Over the past 4 years, we have vastly improved military members' 
and veterans' knowledge of their employment and reemployment rights. We 
will soon publish, for the first time ever, regulations implementing 
the Uniformed Services Employment and Reemployment Rights Act (USERRA).
    While we have made significant progress, we must continue to set 
higher standards for performance outcomes in job placements and job 
retention, and we must always stress better performance and 
accountability on the part of those who directly serve veterans.
    We have a tremendous opportunity today to move to a higher level in 
helping servicemembers and veterans obtain better training for better 
jobs. Our economy is strong, our country needs workers, veterans are 
outstanding employees, and there are many new career opportunities, 
especially in high growth, high demand industries.
    In my lifetime, I have never seen soldiers and veterans held in 
higher esteem than they are today. They have earned that. They deserve 
our best efforts to help them.
    We have the support, commitment and collaboration of the entire 
Department of Labor, as well as the Departments of Veterans Affairs, 
Defense and Homeland Security, to improve employment opportunities for 
veterans. We will continue to set the bar very high so they receive the 
dignity, respect and services they have earned.
    Mr. Chairman, I am honored and humbled by President Bush's and 
Secretary Chao's confidence in me for this nomination. I look forward 
to this honor and to the challenge, if the Senate so entrusts me, of 
becoming the Assistant Secretary of Labor for Veterans' Employment and 
Training.
    I pledge to work with this Committee and the Congress, to keep you 
informed, and to be responsive to your oversight responsibilities.
    Thank you for allowing me to appear before this Committee today. I 
thank the Chairman, the Ranking Member and all Committee Members for 
considering my nomination.

                                 ______
                                 
Responses to Written Questions for Charles S. Ciccolella, Nominated To 
   Be Assistant Secretary for Veterans Employment and Training, U.S. 
              Department of LAbor from Senator Larry Craig

    Question 1. The GAO has stressed that, because of ongoing concerns 
about data reliability, it is difficult to assess how well the DVOP and 
LVER programs are serving our Nation's veterans. What measures would 
you implement to ensure that ``VETS'' has the data necessary to conduct 
a meaningful assessment of the services provided to veterans by DVOP 
specialists and LVERs?
    The Jobs for Veterans Act (JVA) required a full review of 
employment reforms by GAO, which includes an assessment of the Disabled 
Veteran Outreach Program specialist (DVOP) and Local Veteran Employment 
Representative (LVER) programs. We have worked very closely with the 
GAO on this review. The GAO's preliminary report cited the data 
reliability concerns, which were initially raised by our staff here at 
the Veterans Employment and Training Service (``VETS'').
    The Department of Labor has been working to improve data 
reliability and reporting in State reporting systems for many years. 
Most recently, the Employment and Training Administration implemented 
significant improvements in reporting by moving to the wage record 
validation of entered employments. Additionally, over 40 States are 
using the Wage Record Information System (WRIS) which captures wage 
records from all participating States, allowing a State to capture 
entered employment data on registrations in one State obtain employment 
in another State. Having employers report on their new hires and on all 
individuals who earn wages, instead of calling employers and validating 
employment information, has been a major move forward and has greatly 
helped to ensure that most of the data we're getting is meaningful and 
accurate. If I am confirmed, I will work with ETA to encourage State 
implementation of this system as soon as possible. We can do this by 
providing technical assistance and training to those States that have 
not completed their adoption of the system.
    Additionally, ``VETS'' requires each State to submit quarterly 
financial and performance reports, and each One-Stop Career Center to 
submit a quarterly Manger's Report. Our field staff also conducts 
annual assessments of the Jobs for Veterans Act (JVA) State Grants 
Program in the One Stop Career Centers. We do a lot of analysis and 
monitoring of the services provided and outcomes reported by the DVOPs 
and LVERs. We thoroughly review the required quarterly State financial 
and performance reports at the State, Regional and National levels to 
ensure that we are getting the most reliable JVA data. Where errors are 
identified, we provide technical assistance to ensure that the problem 
is resolved. If confirmed, I would also stress the need for State 
Workforce Administration officials to review how data is collected and 
reported with the DVOPs and LVERs. Finally, we need to refine the 
``VETS' '' self-assessment tool that we use to ensure that all veteran 
employment services provided at the service delivery point are in 
compliance with the requirements of the JVA. I believe the actions that 
have been taken since the implementation of the JVA, along with the 
actions I plan to take if confirmed, will provide ``VETS'' a means of 
assessing the services provided by the DVOPs and LVERs.
    Question 2. It is my understanding that programs such as the 
Transition Assistance Program (TAP) are intended to facilitate the 
transition of active duty troops out of service and into civilian 
life--and not necessarily to facilitate the movement of Reserve and 
Guard personnel into and out of active duty. In light of increasing 
movement by Reserve and Guard personnel into and out of active duty 
roles, do you think program changes are needed to account for the 
unique needs of Reserve and Guard personnel?
    Answer. We must address the increasing movement by Reserve and 
Guard personnel into and out of active duty roles. While the Department 
of Labor has provided employment workshops as part of the active duty 
TAP, there is now an increased need to provide these workshops to the 
reserve components as our worldwide military commitments have 
necessitated a mobilization of National Guard and Reserve members that 
is unprecedented in modern times. The result is a need to provide these 
workshops to members of the Guard and Reserve, and we are working with 
the National Guard and Reserve on providing TAP services to these 
returning servicemembers in many States on an informal and as needed 
basis. Recently we launched Reserve Component TAP demonstration 
programs, in which we work with returning units and provide a flexible 
format that allows for a tailored transition assistance package that 
meets local needs. The approach in each location is unique. Once we 
evaluate the success of these programs and review any feedback from 
participants, we will work with the Department of Defense--led 
Demobilization Working Group (including the National Guard Bureau and 
Office of the Chief of Army Reserve) to create flexible models that can 
be adapted to fit any situation.
    Question 3. ``VETS'' has reported that in program year 2003 it had 
an ``entered employment'' rate of 58 percent for veterans. Does 
``VETS'' track the annual wages earned by those veterans that have 
entered employment? If so, what is the average wage? Does ``VETS'' 
track how long those veterans remain in their jobs? If not, should it? 
Are there measures you would like to see implemented to track the 
quality and success of employment secured by veterans?
    Answer. ``VETS'' does not currently track the average wage earned. 
However, under the new common performance measures, we will have access 
to a new performance measure that tracks the 6-month earnings increase. 
We do track employment retention at the 6-month point. The wage records 
provide both employment and retention rates and are, I believe, very 
significant performance measures that allow us to better monitor the 
quality and success of employment by veterans.
    Question 4. VA's Vocational Rehabilitation and Employment program 
provides vocational rehabilitation services to disabled veterans. How 
does ``VETS'' integrate its services with those provided by VA to 
assist disabled veterans in obtaining employment? What additional 
measures should be taken to integrate the services provided by ``VETS'' 
with the services provided by VA?
    Answer. ``VETS'' has a strong working relationship with the VA's 
Vocational Rehabilitation and Employment Service (VR&E). We continue to 
work with VR&E staff at the national and local level to improve 
services to disabled veterans receiving VR&E services. We have 
approximately 55 veterans employment representatives outstationed at 
VR&E sites and 90 located at other VA facilities, including VA medical 
centers. We provide itinerant coverage in other locations and work 
through a coordinated referral system. Additionally, we will be soon 
implementing a new Memorandum of Understanding between ``VETS'' and 
VR&E that among other things will establish three work groups: (1) 
Performance Measures for Assessment of Partnership Program Results; (2) 
National Veterans Training Institute (NVTI) Curriculum Design; and (3) 
Joint Data Collection, Analysis, and Reports.
    ``VETS'' has also initiated a study to evaluate how well the VR&E 
referral process is working. This study will provide a clear assessment 
of the employment and retention rates of disabled veterans who are 
referred by VR&E to the DVOP specialists and registered with the Public 
Labor Exchange. The study will help in determining future service 
delivery strategies for this targeted population.
    Question 5. ``VETS''' stated mission ``is to provide Veterans with 
the resources and services to succeed in the 21st century work force by 
maximizing their employment opportunities, protecting their employment 
rights and meeting labor-market demands with qualified Veterans.'' How 
does ``VETS'' measure its success in accomplishing that mission?
    Answer. ``VETS'' measures success through a series of performance 
measures including entered employment, entered employment after 
receiving staff assisted services, and employment retention, measured 
for all veterans and also separately for disabled veterans. We have 
also instituted the grant level measures I referred to in response to 
Question 1, which measure the performance at the DVOP/LVER level. 
Through these and other performance measures, we have seen improved 
performance outcomes in recent years. Four years ago, approximately 3 
in 10 veterans using the workforce system were being placed into jobs. 
Today, nearly 6 in 10 are entering employment.
    Question 6. Under the Jobs for Veterans Act, veterans are entitled 
to priority of service for all employment services funded by the 
Department of Labor. Would you please explain what measures the ``One-
Stop job centers'' generally have instituted to provide priority of 
service to veterans? Do you believe that more needs to be done to 
ensure that veterans are receiving priority of service?
    Answer. The cornerstone of the workforce investment system is the 
network of One-Stop Career Centers, including more than 3,500 centers 
and affiliate sites. One-Stop Career Centers provide a wide range of 
employment and training related services that help employers find the 
skilled labor they seek and help ensure that job seekers find good jobs 
with good pay and career pathways in high-growth industries. In Program 
Year 2003 alone, we connected over 1.4 million veterans (200,000 of 
them disabled) to the workforce investment system.
    In Program Year 2003, the first year under the jobs for Veterans 
Act requirement for priority of service, the Department established a 
plan for how best to implement priority of service. On September 16, 
2003, the Department's Employment and Training Administration issued a 
guidance letter that instructs the workforce investment system on the 
provisions in the jobs for Veterans Act to ensure Priority of Services 
for veterans and eligible military spouses. The Department also 
developed web resources on each specific program area for use by the 
One-Stops and others on how the program is impacted by the jobs for 
Veterans Act. This focuses on how best to implement the priority. These 
web sources also provide an opportunity for One-Stop staff to submit 
additional questions. The Department also used PY 2003 to collect data 
on the participation of veterans in various programs covered by 
priority of service. This data shows that veterans are essentially 
represented in proportion to their incidence of representation within 
the workforce for the major adult programs. In those programs where you 
would expect veteran participation, they are well represented on a 
parity basis with the overall veteran participation rate in the labor 
force.
    States recently completed a 2-year strategic plan for their 
workforce1 investment system under the Workforce Investment Act, and 
States were required to report their strategies for implementation of 
priority of service to veterans. States are doing many things to ensure 
veterans are receiving priority of service. These actions include 
improved procedural strategies on how veterans are served, such as 
outreach activities, improved intake and registration, better client 
flow procedures and clarification of the DVOP and LVER roles. Many 
States also have improved integration of DVOP/LVER services by cross 
training their staff. Many States have been working hard to improve 
their informational strategies by creating veteran specific 
legislative, entitlement and contact information well above and beyond 
the information provided to other clients. Some States have implemented 
job matching strategies through their electronic websites.
    If I am confirmed as Assistant Secretary for Veterans Employment 
and Training, it would be my responsibility to work closely with the 
Assistant Secretary for Employment and Training to ensure that all 
State Workforce Agencies and each One Stop Career Center understands 
what veterans priority of service means and to develop communication 
and technical assistance strategies implementation of priority of 
service.
    ``VETS'' is already working on the implementation of an outreach 
and communication plan on services for veterans under a Memorandum of 
Understanding between the Department of Labor and the Department of 
Defense that will include new methods for promoting priority of 
service. In addition, we are developing new methods for linking One 
Stop Career Centers to the Transition Centers on the military 
installations. This helps veterans, especially those in the category of 
young and recently separated, make the connection to the One Stops to 
ensure that they have all the tools they need to enter the workforce.
    Question 7. What performance measures do you think the Senate 
Veterans' Affairs Committee should use to assess the performance of 
``VETS'', particularly with regard to its employment services? What 
would be your assessment of ``VETS' '' performance under those 
measures?
    Answer. Obviously, the best measure for assessing the performance 
of ``VETS'' is that veterans are receiving the training and employment 
service they need and are finding good jobs. That is the bottom line.
    But I believe the Committee should assess ``VETS''' performance by 
whether we achieve our stated performance goals, especially with regard 
to veterans entering employment and retaining employment. And, as the 
new common measures are implemented this year, I think the Committee 
can look also at the ``earnings'' measure to gauge ``VETS''' 
performance. ``VETS'' should assess and report on those particular 
measures each year, and continually negotiate with each State, 
consistent with their specific labor market situation, to improve on 
the kinds of jobs veterans are getting. For example, if we capture the 
information on earnings, and compare that to a State's labor market 
conditions, we ought to be able to determine if the workforce system is 
truly more demand driven, if veterans are receiving training in the 
right skills and are moving into the high demand, high growth 
industries where there are good career paths.
    Therefore, I think if we look at employment retention rates and 
they are going up, and we look at earnings, and they are going up, 
those things will be indicators of how ``VETS'' is performing and 
whether we are on the right track.
    Question 8. It is my understanding that, under a pilot program 
launched in February 2005, the U.S. Office of Special Counsel (OSC) is 
handling certain claims under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) involving Federal-sector employers, 
including all Federal-sector USERRA claims that also involve 
allegations of a prohibited personnel practice (``mixed'' cases). It is 
also my understanding that OSC personnel have expertise in identifying 
mixed cases; that ``VETS'' personnel do not have that expertise; and 
that ``VETS'' has declined OSC's request that it be permitted to 
initially screen all Federal-sector USERRA claims in order to identify 
those claims that should be handled by OSC. It has been suggested that 
having ``VETS'' personnel, rather than OSC personnel, screen these 
claims is not the most efficient and appropriate method for discerning 
which entity will handle each claim. What is your assessment of the 
current practice? Can you explain why OSC's request has been denied?
    Answer. The Department takes its responsibilities under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA) very 
seriously. America's service men and women deserve no less than our 
total commitment. Under USERRA, the Secretary of Labor is charged with 
primary responsibility for enforcing the reemployment and other rights 
of service members and veterans. USERRA directs the Secretary to 
undertake a multitude of tasks, including providing assistance 
concerning statutory rights, receiving complaints, conducting 
investigations, resolving disputes, forwarding certain claims to other 
Federal agencies for enforcements, issuing regulations, submitting 
reports to Congress, and conducting various outreach activities.
    To that end, we have worked very hard to ensure that we respond 
quickly to requests for assistance or complaints received from our 
constituent service members. The data we have compiled for fiscal year 
2004 shows that 84 percent of the 1,440 USERRA cases we received that 
year were closed within 90 days, and 92 percent of those cases were 
closed within 120 days or less. We believe we have a strong record of 
success in resolving our USERRA cases in a fair and timely fashion.
    The 3-year pilot project involving the Department of Labor and the 
Office of Special Counsel (OSC), established pursuant to the Veterans 
Benefits Improvement Act of 2004 (VBIA), Pub. L. 108-454, is currently 
underway. Under the terms of the 3-year demonstration project, the 
Department of Labor will transfer odd-numbered USERRA cases to OSC for 
review, investigation, and possible enforcement. Working with OSC, we 
have developed a procedure for referring USERRA cases that will ensure 
that our claimants' cases are processed as quickly and efficiently as 
possible. In that regard, our investigative staff has been instructed 
to forward any USERRA cases with any likely or potential prohibited 
personnel practices (PPPs) to our national office for review before 
forwarding to OSC. ``VETS'' is following the processes we have 
established with OSC, and to date, 48 cases have been transferred under 
the pilot project.
    I recognize the importance of handling the claims of Federal Sector 
employees promptly. I do agree that OSC investigators have expertise in 
identifying possible prohibited personnel practices in USERRA claims. 
However, I also believe having OSC review in the first instance of all 
Federal-sector USERRA cases will result in unnecessary delay, 
duplication of effort, and claims bouncing back and forth between our 
two agencies.
    I favor an approach that has been proposed by the Special Counsel 
himself and is under discussion between our two agencies. Under OSC's 
most recent proposal, DOL investigators would receive training in 
prohibited personnel practices, or ``PPPs,'' by working along side OSC 
personnel for a specific period of time. Once trained, they would 
return to DOL where they, in turn, would train other ``VETS'' 
investigators on how better to recognize PPP issues. I think the 
Special Counsel's proposal makes sense. It provides a useful framework 
for resolving this issue and ensuring that ``mixed cases'' will be 
handled efficiently.
    If confirmed by the Senate, I intend to work cooperatively and 
collaboratively with the Office of Special Counsel, ESGR and the 
Department of Justice to resolve all other issues regarding how best to 
handle USERRA claims.
    In addition, we have developed a number of tools, including an 
electronic online complaint form, the ``VETS'' e1010, which will allow 
for an even more efficient transfer of USERRA cases from ``VETS'' to 
OSC. The e1010 can be completed in a very short time, and contains 
features that automatically allow for the immediate transfer of 
appropriate odd-numbered USERRA cases to OSC while providing the 
claimant notice that his or her claim has been transferred. If 
confirmed as Assistant Secretary for Veterans' Employment and Training, 
I fully intend to continue to work in cooperation with OSC under the 
terms set forth under the VBIA.
    Question 9. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee? Do you know of any other matter 
which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. I have no conflicts of interest that I have not fully 
disclosed to the Committee, nor do I know of any other matter that, if 
known to the Committee, might affect the Committee's recommendation to 
the Senate with respect to my nomination.
    Question 10. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that the information provided is complete, accurate, and provided in a 
form not designed to evade or deceive?
    Answer. I have fully and accurately provided all information 
requested by the Committee, and 1 affirm that the information provided 
is complete, accurate, and provided in a form not designed to evade or 
deceive.
    Question 11. If you are confirmed, can this Committee count on you 
to appear personally at Committee hearings when asked? Will you ensure 
that this--Committee is provided with timely responses to requests for 
non-privileged information, materials, and documents that may be 
requested by the Committee in its oversight and legislative capacities? 
In that regard, can you tell me whether there are any outstanding 
requests for information, including post-hearing questions, pending 
before ``VETS'' and when this Committee should expect to receive 
responses to any outstanding requests?
    Answer. If confirmed, I will endeavor to honor requests to appear 
before the Committee and provide timely responses to all requests by 
the Committee.
    I am aware that there are still outstanding written responses to 
questions posed by the Committee following the oversight hearing on 
``VETS'' held on April 19, 2005. These responses are still awaiting 
final clearance from the Office of Management and Budget.

     Chairman Craig. Thank you very much. Thank both of you 
very much for those very valuable and well-placed statements.
    Mr. Terry, the mission of the Board of Veterans Appeals is 
to conduct hearings and dispose of appeals in a timely manner. 
What do you see as the Chairman's role with regard to that 
mission, and how have your professional experiences prepared 
you to lead the board toward accomplishing that mission?
    Mr. Terry. Thank you very much, Mr. Chairman. As you know, 
the statute provides that the board is under the administrative 
control and supervision of its chairman, and certainly as 
chairman, if confirmed, I will report directly to the Secretary 
and ensure that the board does everything it possibly can to 
accomplish the mission to serve our Nation's veterans and their 
families. Sir, it requires leadership, the ability to work 
cooperatively with others, and the ability to envision and 
effectuate constructive change, and I assure you, sir, that 
this is precisely what I will do and what I will further as 
chairman of the board. Thank you, sir.
    Chairman Craig. Earlier this year, Secretary Nicholson 
testified before this Committee that as a Presidential 
initiative, improving the timeliness and the accuracy of claims 
processing remains VA's top priority for VA's benefits 
programs. Do you yet have a sense of what measures you would 
implement at the board to help VA accomplish the goal of 
improving the timeliness and the accuracy?
    Mr. Terry. Thank you, Mr. Chairman. I agree, accurate and 
timely claims processing must be the principal focus of our 
board, and it will remain that, but we are just part of the 
equation, sir. The Veterans Benefits Administration led by 
Admiral Cooper has cognizance over all the 57 regional VA 
regional offices whose decisions may be appealed to our board, 
and together we are working hard to reduce the time required to 
process these claims, that is the claims from the date of 
filing of the Notice of Disagreement with the regional office's 
determination to the resolution of an appeal before the board.
    We are likewise working to do a number of other things, 
sir, to increase the timeliness. We are working to increase the 
efficiencies through effective in-house training, use of 
technology where appropriate, Mr. Chairman, and improvement of 
our current error-free decision rate, which currently stands at 
90 percent. We are also providing training to our attorneys and 
veterans law judges, sir, to write more concise and organized 
decisions that can be issued in a more timely way.
    Organizationally, we are trying to conduct more of our 
hearings by video conference rather than by travel boards. Sir, 
we do more than 8,000 hearings per year. Video conferences 
would save on judges and counsels' time spent away from writing 
decisions. If confirmed, sir, I will also try to improve our 
internal processes, and by that I mean we need to look at our 
docketing system, our intake process, and certainly we need to 
develop meaningful goals for the productivity of our staff to 
measure their performance in a meaningful way, and we are 
working on that very hard at this time.
    Now, we have also developed realistic goals for our 
veterans law judges and our attorneys through a fair-share 
system that we have developed to better manage our caseload. 
Senator, when a system processes approximately 40,000 cases a 
year, as we do, we must take advantage of each of these 
measures to ensure that all of our professionals are as 
productive as possible. I assure you that I am totally 
committed to these principles.
    Chairman Craig. In Fiscal Year 2004, the U.S. Court of 
Appeals for Veterans Claims remanded over 1100 cases to the 
board. Approximately 80 percent of the cases, it decided on the 
merits. Do you know if the board tracks the reason for each 
court remand and whether they are based on error by the board, 
and do you believe measures can be taken to reduce the rate of 
court remands?
    Mr. Terry. Thank you, Senator. Sir, the board has currently 
established a quality review unit which reviews every remand 
from the court and conducts a trend analysis of all issues 
remanded. It is important to note that most cases appealed to 
the Court of Appeals for Veterans Claims involve several 
issues, and when the court resolves all but one of these 
issues, for example, and sends that issue back to the board for 
further adjudication, the case is listed as a remand, not as an 
adjudicated case, not as a decided case.
    It is also important to understand that many of the remands 
are based on changes in the law from that which controlled when 
the BVA decision was made. Others are based on an honest 
difference in judgment between the reviewing judge at the Court 
of Appeals for Veterans Claims and the deciding veterans law 
judge at the board. About 60 percent, sir, of these cases, of 
these remands, are never seen by a Court of Appeals for Veteran 
Claims judge, but represent actions by the court staff and 
attorneys who are involved in the case to dispose of the 
appeal.
    We all have much work to do to limit the number of remands 
and to better serve our veterans. I assure you, Mr. Chairman, 
that I will work very hard to ensure that that occurs.
    Chairman Craig. Well, Mr. Terry, thank you very much. I 
have other questions, and we will submit them to you in writing 
for the response. Because of the time constraints we are under 
this morning, I will not ask them here before the Committee.
    Mr. Ciccolella, I am going to run to the floor and vote. 
That is a fast walk, and then I will be back.
    Mr. Ciccolella. We will certainly wait for you, Senator.
    Chairman Craig. So I trust you all will chill out for just 
a few moments. I am going to leave the Committee un-recessed in 
case other Members come prior to my returning, and I will ask 
the staff to allow them to ask questions of you and to preside 
as if the Committee were in session, as it will be, without a 
Chairman.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Thank you very much. I will step out and get a couple of 
votes made, and I will be right back. Thank you and I 
appreciate your patience.
    [Pause.]
    Senator Salazar. Thank you. Senator Craig just met me in 
the hallway, and he said I could come in and take over as 
temporary Chair. So I know we are continuing to hold this 
hearing of two very important nominations and continuing to try 
to get through a series of votes on the floor this morning. So 
I just appreciate your patience as you watch us work in doing 
the Nation's business on the Senate floor.
    Today, the nominations of both of you are an important 
consideration for all of us, and I am proud to say that both of 
you come with the kinds of qualifications and distinctive 
records that I expect that you will receive my support and 
receive the support of many Members of the U.S. Senate. Both of 
you have served our country honorably in Vietnam, and for your 
service, we very much appreciate your sacrifice for our 
country. You also have spent most of your lives working on 
behalf of the public, a noble calling, and I appreciate your 
willingness to continue to do that on behalf of our Nation's 
veterans, especially because we must make sure that we honor 
our Nation's commitment to the veterans of our country.
    Over the last few weeks, this Committee has had some 
difficult times. We have tried to address the budget crisis 
that we find our veterans health care in today. The 
announcement that VHA was short some $1 billion for this fiscal 
year has caused significant concern and lots of discussion here 
in this Committee as well as with the Veterans Administration 
and with Secretary Nicholson. From my point of view, the work 
that we need to do in that arena is just beginning. We can fix 
a short-term problem for this year with a fiscal addition of 
money into veterans health care, but longer term, it is going 
to be very important for all of us to make sure that we are 
addressing that issue so that we don't have the same problem in 
the years ahead.
    I am sure most Americans probably have never heard of the 
two positions that you have been nominated for by our 
President, the Board of Veterans Appeals and the Office of 
Veterans Employment and Training Service, but I will tell you 
that the veterans community and the veterans service 
organizations that work with veterans all the time know of the 
critical importance of both of your roles.
    Chick, I know you came to see me in my office and we talked 
a lot about employment opportunities for veterans and ideas 
that you might have with respect to how we can provide 
additional employment opportunities for veterans. So my first 
question is going to be to you. I have spent time in my State 
in Colorado Springs where we have over a hundred thousand 
veterans that live within that community, and Fort Carson is a 
place where we have deployed many of our soldiers to Iraqi and 
Afghanistan. One of the things that we are preparing for in 
Fort Carson today is the expansion of our troop presence there 
at Fort Carson, but as part of that conversation, one of the 
things that I asked the business community who was present 
there that day was whether or not there were additional things 
that we could be doing in our State of Colorado as citizens to 
try to help the transition of our soldiers from active status 
over to veteran status and try to help them find employment 
opportunities. I would like you to comment on that, if you 
would.
    Mr. Ciccolella. Thank you, Senator Salazar. You represent a 
great State in Colorado. We have a good State director out 
there, and we have a very good program for both the active duty 
and the Reserve component units that are mobilizing and then 
demobilizing. We run a lot of the transition assistance 
programs, as you know, from Fort Carson, and we also are 
working with the State Adjutant General, as you and I discussed 
earlier, to look at what the requirements are for the Reserve 
component units and Guard units as they come back, and things 
are changing today. Their requirements are changing. These 
organizations, units, have gone to their deployments, whether 
they are in Bosnia, Herzegovina, Iraq, Afghanistan or whether 
they are deployed in other areas in the War on Terror.
    When they come back, they, we find frequently, are coming 
back to the same jobs or they may have problems with 
reinstatement, but in any case, they may be looking for another 
job, and for that reason, we believe we can be available for 
them and are being available to help with transition assistance 
when they demobilize. We run a lot of transition assistance 
employment workshops, or the modified version of the existing 
transition workshop that we provide to active duty 
servicemembers for these Guard and Reserve servicemembers.
    Now, you mentioned the employer community. One of the 
things that Secretary Chao and our employment training 
administration, myself, and my predecessor Fred Juarbe have 
tried to do is to make the workforce system as much a demand-
driven, business-driven system as we can. We need to get the 
employers and the one-stop career centers hooked up so the 
employers provide the job requirements, and then our veteran 
employment representatives can profile the requirements of the 
veterans and make that match, and I think that, as you 
mentioned, you reached out to the employer community, those 20 
leading employers in Colorado. I think it will be very 
interesting to talk with them and to see if we can really make 
the connection between the employer and the veteran through 
that one-stop career center, because if we can do that, it is 
going to be a great model for the rest of the country.
    Senator Salazar. I will ask you, Chick, to help us get that 
done in Colorado in a way that works for all of us.
    We have been joined by Senator John Warner, who is a 
distinguished Chairman of Armed Services and perhaps one of the 
most distinguished Senators in the last 50 years here in this 
body. I had the honor of having a wonderful meeting with him 
this morning, and he personifies what is it is to be a 
statesman in America, and he is here to speak on your behalf. 
So I will turn it over to Senator Warner.

          STATEMENT OF HON. JOHN WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. I thank the distinguished Chairman and 
Members of the Committee. I find it a privilege to come over to 
say a few words from the heart about Colonel Chick and his 
family who are with him here. I was privileged to have him work 
with me when I was Chairman of the Rules Committee, which was a 
very long time ago, together with another wonderful Army man, 
one of Chick's best friends, Grayson Wunderling, and in 
preparation for these remarks--and I will ask to put my 
extended statement into the record given that I must return for 
the vote--Grayson Wunderling filled me on some facts which I 
think are very pertinent. I am certain that the Members of the 
Committee and others are familiar with his distinguished career 
and, indeed, that of his wife who is likewise a public servant.
    So I want to focus on that part of his career which I think 
enables him to identify with the veterans all across America. 
I, myself, am proud to have a very modest career in the 
military, having served in World War II, one of the five 
remaining Members of the Senate. Inconspicuous as it was, as a 
17-year-old sailor, I didn't accomplish much before the elders 
concluded that war. I want to talk about one of those elders, 
your father, who came up through the ranks and fought all 
through the battles of World War II and was recognized for his 
courage and bravery by receiving three silver stars. Likewise, 
Colonel Chick followed in his father's footsteps during 
Vietnam. At that point in history, I was either Under Secretary 
or Secretary of the Navy, I guess, during the last 5 years that 
I served in the Pentagon, and you and your fellow compatriots, 
among them Grayson Wunderling and others that I have known 
through the years, performed brilliantly in that stressful and 
difficult conflict, and there you are no stranger to the 
battlefield, much like your distinguished father, and you too 
won a silver star. That will enable you to, more than I think 
anything else, gain the confidence and trust of the people with 
whom you will serve in the Department of Veterans Affairs and, 
most importantly, all across the land the veterans who will 
look to you for fairness and for leadership and for recognition 
that all veterans so richly deserve for their service to 
country.
    We are in this room, Mr. Chairman, enjoying the most 
important and precious thing we have, freedom of speech, 
freedom of assembly because of the generations of men and women 
who have gone across this land and left our shores to protect 
those freedoms, and today this Nation is gripped in difficult 
conflict, perhaps the most challenging in the history of 
mankind, that is non-state sponsored conflict. We are engaged 
in a hearing in my Committee this morning on trying to 
determine what is Congress' role in establishing a clear 
definition of how we deal with detainees and others who we must 
take into our custody to gain intelligence which is vital to 
the men and women of the armed forces and, indeed, others here 
at home to protect ourselves.
    I had a chance to visit with our distinguished Chairman 
Craig, and as long as I have been around, I didn't realize that 
the Department of Veterans Affairs, next to the Pentagon, has 
the largest number of civilian employees. So you have an 
awesome task, but you sure come with the credentials to do it.
    So I will put this in the record, and I thank the 
distinguished Chair, and wish you well. As I told you 
throughout the time I have known you, you are on your own now. 
Good luck.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. John Warner, U.S. Senator from Virginia

    Chairman Craig, Senator Akaka, and my other distinguished 
colleagues on the Senate's Veterans' Affairs Committee, I thank you for 
holding this confirmation hearing for Charles Ciccolella, or--Chick--as 
I have come to affectionately know him.
    Today, I am proud to present Col. Chick, a fellow Virginian, to the 
Committee as the President's nominee to be Assistant Secretary of Labor 
for Veterans' Employment and Training.
    Chick is supported here today by his wife Donna, a fellow civil 
servant with the U.S. Drug Enforcement Administration. Their daughter 
Connie, also a civil servant with the General Services Administration, 
was not able to make it today. But, you can see the dedication to civil 
service throughout his family, and I thank them for that.
    The position of Assistant Secretary of Labor for Veterans' 
Employment and Training is a very important one for our veterans and 
transitioning servicemembers, and it is a position which Chick is 
familiar with as he currently serves as the Deputy Assistant Secretary 
of Labor for Veterans' Employment and Training.
    As Assistant Secretary, he would be responsible for ensuring that 
the Veterans' Employment and Training Service (``VETS'') provided the 
resources and support necessary to help veterans succeed in today's 
workforce.
    How fortunate we are that someone as eminently qualified as Chick 
is willing to serve in this critical position.
     Chick graduated from Auburn University and later earned a Master's 
Degree from Central Michigan University. Just as important as his 
formal education is for this position, Chick also had a distinguished 
28 year career in the United States Army, serving with the 101st 
Airborne during Vietnam and later in several other troop command and 
staff positions.
    After the army, he began his public service with the State 
Department and then with the U.S. Senate for the Rules Committee and 
the Senate Sergeant at Arms. In 2001, Chick began his career with the 
Department of Labor, where he has served with distinction.
    On a more personal note, I must point out that I have seen first-
hand the dedication and care that he applies to his work. When I was a 
Member of the Rules and Administration Committee, Chick served 
admirably as the Director of Information Technology Policy for the 
Committee.
    Mr. Chairman, I am certain that Chick will continue to be a strong 
asset for the Department of Labor as Assistant Secretary of Labor for 
Veterans' Employment and Training. For these reasons and more, I offer 
my highest recommendation in regard to this nominee, and urge my 
colleagues to support his nomination.

    Mr. Ciccolella. Thank you, Senator Warner.
    Senator Salazar. Thank you very much, Senator Warner.
    I have about a minute and a half or 2, so I am going to 
have to leave as well, but let me ask a question of you, Mr. 
Terry, concerning the Board of Veterans Appeals, the thousands 
upon thousands of veterans that have to go through that 
appellate process. As Senators, we all represent veterans in 
our State, and we sometimes get concerns about the delay that 
they encounter in going through the Board of Veterans Appeals 
process. I was wondering whether you could share with the 
Committee your ideas on how you we might be able to improve 
that process and avoid the kinds of delays that we are 
encountering now.
    Mr. Terry. Thank you very much, Senator Salazar. We are 
embarking on a process that includes a number of measures that 
hopefully will help us both reduce the backlog of pending 
appeals and also speed the process of resolution of the cases 
before us. We are certainly looking at improved efficiencies. 
We are trying to work very hard on ensuring that we have a 
quicker intake process, that we improve our docketing system, 
that we write shorter, more concise decisions with the existing 
full-time employees we have.
    We also are doing a great deal in training, sir. We are 
trying very hard to ensure that we are looking at all economies 
that are available to us in terms of the manner in which we 
focus on the real issues of the case and shorten decisions so 
that we can move more of them through the system.
    Sir, we are turning out--last year, we turned out 38,000 
decisions. That is with 56 judges and 228 lawyers. That means 
that each of our lawyers is writing a 15 to 25-page decision 
nearly every day, close typed. That is a lot of work. We have 
to find better ways to get it done. We are. We are looking at 
economies of scale, and we are finding ways that we can make 
our people more proficient. They are a wonderful group of 
attorneys, Senator. They truly are. They are truly 
professional, and they are doing yeoman work for this country, 
and I need you to know that, sir.
    Senator Salazar. Thank you, Mr. Terry. There has been some 
suggestion that the administrative law judges be decentralized 
out across the country, and I am wondering what your thoughts 
are on that potential decentralization.
    Mr. Terry. Sir, we do not think that is a positive 
approach, and let me tell you why. The way we are structured 
within the department today, attorneys are able to maintain a 
consistency of decisionwriting by ensuring that the decisions 
are available quickly to each of the attorneys and each of the 
judges as they come out in the central office. We also are able 
to take advantage of the experience of certain judges who have 
tremendous expertise in each of several areas, and having them 
available as resources for our other judges who may not have 
that expertise in that particular area is worth its weight in 
gold, and with the numbers, sir, of decisions that we are 
writing each year, it is critically important that we have both 
the consistency and the availability of readily available 
assets, the ability to have attorneys move from one case to 
another very quickly and assist one another, and having them in 
a centralized location allows us to do that.
    In terms of economies of scale, sir, I believe we can be 
far more efficient the way we are currently structured. That 
doesn't mean, sir, that we are not working very, very hard with 
the regional offices. You need to know that our travel teams 
that go out to each of the regional offices to hold hearings, 
and of course each person who appeals a decision of the 
regional office staff has the right to have a hearing on 
appeal, our staff----
    Senator Salazar. I appreciate that, Mr. Terry. Where I 
would like to go with this is there are issues out there with 
how we can streamline the process and how we can make it 
better, and I look forward to working you and I am sure Members 
of this Committee do as well. I have, I am told, 1 minute to 
get to the vote. So I see that our distinguished Chairman of 
this Committee has returned, and there is no question that he 
has the best interests of veterans in his heart and in his 
mind.
    So I look forward to working with both of you, and 
congratulations on your careers.
    Mr. Ciccolella. Thank you, Senator.
    Mr. Terry. Thank you, Senator.
    Chairman Craig. Senator, thank you. I appreciate it.
    Let me conclude our questioning with you, Mr. Ciccolella. 
In Fiscal Year 2006, the Veterans Employment and Training 
Services plans to dispense $162 million in grants to States to 
fund the Disabled Veterans Outreach Program, DVOP I believe we 
call it, and the Local Veterans Employment Representative 
program, and let us see, we call that LVER.
    Mr. Ciccolella. Yes, sir.
    Chairman Craig. See, I am new to this. So I am really 
working on all these.
    If you are confirmed, what measures would you take to 
ensure that the money is well spent, and are there measurable 
performance outcome standards in place for that purpose?
    Mr. Ciccolella. Thank you, Mr. Chairman.
    Mr. Chairman, what we do before we send out the money to 
the States is we require the State to come to us with their 
plan for how they intend to provide priority service to 
veterans in all of the 19 Department of Labor-funded job 
training or job placement programs. We also require them to 
tell us how those DVOPs and LVERs, those veteran employment 
representatives, are going to be integrated in the one-stop 
career centers. You have 24 of those LVERs and DVOPs, for 
example, in Idaho. It is important that they be integrated 
because if the DVOP and the LVER are well integrated, that 
means they know the other programs, and when veterans come into 
that one-stop, they are able to direct the veteran after making 
the assessment, and if they need training, great, then they can 
get the training. If they need placement, then they can get the 
placement.
    We require the States to report to us on six measures. We 
require them to report on veterans and disabled veterans. We 
require them to report on how many veterans are employed, what 
the retention rates are after 6 months, and we require them to 
report on the employments after veterans have received 
counseling or job referral, more intensive services. Now, we 
also require the States to report separately on 17 performance 
measures, and those measures are geared to the individual 
veteran employment representative. What we also require is that 
those additional 17 measures be the basis for the position 
descriptions and the evaluations, the performance management 
plans, of those veteran employment representatives. So the DVOP 
or the LVER knows what the performance standards are.
    We have pretty good success with that. Obviously, it varies 
State to State and obviously it varies one-stop center to one-
stop center. Now, what we need to further improve, that is, to 
improve the relationships with our Federal State Directors and 
the State workforce agencies, and we need to provide more 
information and assistance to the State workforce agencies so 
they understand title 38, the requirements, the priority of 
service, because in many cases, things are not being done 
because people don't understand the law.
    Chairman Craig. Thank you. In a 1999 transition commission 
report, it was noted that male veterans age 20 to 24 have 
higher unemployment rates than non-veterans of the same age. 
More recently, during the first quarter of 2005, one of five 
male veterans age 20 to 24 was unemployed. That is almost 
double the unemployment rate for non-veterans of the same age 
group. If you are confirmed, what measure will you take to 
address what appears to be a long-standing and troubling 
pattern of unemployment among those young veterans groups?
    Mr. Ciccolella. Mr. Chairman, you are exactly right. This 
is a long-standing issue. It has been this way for about 25 to 
30 years. When the Bureau of Labor Statistics takes this 
measurement through their household survey of the age group 20 
to 24, those rates vary. In January, the rate was 20 percent 
employment; in April, at 7 percent; and May comes out to about 
11 percent. We are dealing with a small cohort of people. So 
the statistics will vary.
    Now, when you look at the age group 20 to 24, these 
veterans, they are recently separated. They are coming out of 
the service. So we know that this is a turbulent period of time 
for them. What I am trying to do is tell you why the issue 
occurs, because I think that is what you have to know. You have 
to try to understand the issue first. It is a turbulent period. 
So it is just like the 18- and 19-year-olds when they come into 
the workforce for the first time. Their unemployment rates are 
high because they are first-time entrants into the workforce.
    The other thing is that servicemembers--and I was talking 
to Dr. Chu about this over at Defense the other day, and they, 
incidentally, are very aware of the issue and work with us very 
closely. The Defense Department funds, obviously, the 
unemployment insurance for veterans when they first come out of 
service if they are not employed. So what we find anecdotally 
is that some young veterans will resist taking the first job 
that is available and may be more selective because they have 
the advantage of the unemployment insurance. Now, that helps us 
understand what the problem is, but that doesn't help us 
address it.
    What we need to do to address it, I believe, is to beef up 
our Transition Assistance Program and orient it more toward 
these recently separated veterans. In that regard, we are 
working very closely with the Defense Department because we are 
only getting about 60 percent of the transitioning veterans 
through the TAP workshop, or Transition Assistance Program 
employment worksop, and it would be nice to get a 100 percent 
of them. So the Defense Department now is working with us to 
try to make this Transition Assistance Program employment 
workshop more of a mandatory event for separating service 
members. I think we can knock some of these numbers down when 
we do that, because servicemembers who go to that transition 
assistance employment workshop, we get really good reviews on 
that, and servicemembers need that transition assistance and 
they need to understand about resumes and skills and their 
networking abilities and those sort of things. So I think we 
can knock it down that way.
    Chairman Craig. You use the figure 60 percent attend these 
training sessions. It is voluntary at the moment?
    Mr. Ciccolella. Well, yes. It is interesting how it works. 
When you separate from service, you get a pre-separation 
counseling sheet, and you can indicate on there if you want 
transition assistance services. Sometimes a servicemember, like 
maybe a senior servicemember, already has a job. So he or she 
may not opt to go through the transition assistance employment 
workshop. But there are other cases where, because of 
operational needs, a commander might not be able to release the 
servicemember for that, and I think the Defense Department and 
the Labor Department and the Department of Veterans of Affairs, 
because they have the disabled TAP program, we are working 
together to try to make and encourage more servicemembers to 
enroll in that workshop.
    Chairman Craig. We will ask you to come back a year from 
now and report on that to see if we can't improve that a great 
deal. It sounds like we are missing the obvious, because 
apparently the track record coming out of that training session 
works.
    Mr. Ciccolella. It does work.
    Chairman Craig. Let me ask one last question, and you 
approached it in your opening statement, and then I will turn 
to my colleague, Senator Thune, before we close this hearing 
out.
    You mentioned the 116th National Guard Brigade team that is 
based in Boise, but in Iraq at the moment. I had the 
opportunity to visit with them. I took the Secretary with me as 
we went there, and they are one now of thousands of Guards and 
Reserve units across this Nation that are in Iraq, and we are 
using our Guard and Reserve very, very heavily at this moment. 
I am committed to helping ensure that when they return, they 
will have a seamless transition back into civilian life, and of 
course that is going to be awfully important for all of them.
    If you are confirmed, what measures will you take to make 
certain that the re-employment rights of Guard and Reserve 
personnel are protected, and what measures will you take to 
ensure that Guard and Reserve personnel will be provided with 
timely and comprehensive information regarding DOL's employment 
and training services?
    Mr. Ciccolella. Thank you, Mr. Chairman. The 116th is a 
great unit, has done a great job in the OIF Iraqi Theater. They 
will be returning and they will be returning in, I think, the 
period of November through January, as I understand it. They 
will come through Fort Lewis when they do that. That will be 
their demobilization point, and that is the way it is with 
Guard units. They come to a major military installation and get 
their de-mobilization.
    What we do before they leave is we make sure that either we 
or the Defense Department's Committee on Employer Support for 
the Guard and Reserve brief them on their employment and re-
employment rights, among other things, before they depart, and 
that certainly happened with the 116th. You have got them 
spread out all over Idaho, but I think they did those briefings 
in about 25 different locations. Now, when they come back, our 
standard practice is that our Federal State Director gives them 
a 1-hour briefing on the USERRA, the Uniform Services 
Employment Re-employment Rights Act, so they understand their 
employment rights and their re-employment rights and 
reinstatement rights. They understand what the obligations of 
the employers are.
    They also understand, more importantly, how to get help. In 
other words, if they cannot get their reinstatement, or their 
seniority benefits or their health benefits aren't reinstated, 
then they will know how to contact either us or the Department 
of Defense. The Guard units are very good. So they usually have 
a point of contact that they could talk to there, as well. So 
that is what we are doing in terms of their employment and re-
employment rights, and if necessary, we will open up a Federal 
investigation, and we do those Federal investigations.
    Now, on the point about servicemembers being over there for 
a period of a year or so and come back, some of them were 
unemployed before they left. Some are underemployed when they 
come back. They have obviously done a lot of good things when 
they have been in the military, especially in the combat zone. 
They have learned a lot of management skills, a lot of skills, 
period, and a lot of leadership. So we make available on an as-
needed basis--and I have had every one of our State directors 
contact the State Adjutant General to make sure that we can 
provide, a modified transition assistance employment workshop, 
and that workshop will enable each of these servicemembers to 
know how to get employment assistance and what programs are 
available that are operated by the Department of Labor and the 
other Federal agencies in the one-stop career centers. In other 
words, they will know how to access that system, and the 
individuals who do that workshop facilitation are the DVOPs and 
the LVERs, those veteran employment representatives that you 
mentioned.
    Not every unit takes advantage of this program. We are 
trying to figure out what is the best model for the program, 
because when the Guard units come home, you know, they are on 
Ft. Lewis for like about 3 days. Then they split, and the next 
time they get together may be 90 days. At the 60-day mark or 
30-day mark, an individual might need employment assistance. So 
it is different for every one of the States, and if the Defense 
Department now, based on the GAO's recommendation, is taking 
the lead, we are going to work with them to try to figure out 
how to break the code on what transition employment assistance 
is needed and really do a better job of making sure that they 
get that employment assistance.
    Chairman Craig. Well, I thank you for that comment. This 
Committee and I have expressed very real concern to the 
Department of Defense and we recognize with veteran services 
that these men and women are coming not back to a base and to a 
unit that is family in itself where they obviously are 
employed, because they are full-time career, but they are going 
back into civilian life, and we know that there are going to be 
some difficulties with them both physically and mentally. One 
of the ways to ease them back in is to assure that they can get 
back into that job they left, if they left a job. That is going 
to be a tremendously valuable base to them as will be the home 
and the family, and we have got unprecedented numbers at hand 
now.
    So I am pleased to see you are focused on that. We will 
stay with you on that to watch it because the Committee and I 
have expressed our concern.
    Senator Thune, thank you for coming by. The balance of the 
time is yours.

  STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Since you put it that way, thank you, Mr. 
Chairman, and I want to thank our nominees for your tremendous 
record of service to our country, both in the military and 
subsequent to that. I can't say enough how appreciative we are 
of that service.
    Mr. Terry, I noted in your remarks, as well, that your 
father was a Navy pilot, as was mine, and also that your 
father-in-law was at Pearl Harbor. My Uncle Gibb was at Pearl 
Harbor on December 7th of 1941. So there is a lot of Navy 
history there, but you both have resumes that speak for 
themselves about your commitment and dedication to this country 
and to its principles and its freedom. So thank for that 
service, and I look forward to working with both of you in your 
new positions. Obviously, this is something of great importance 
to our Nation, making sure that we are doing right by our 
veterans and that the programs that are in place to assist them 
are administered in a way that is actually beneficial and a 
service to them.
    I am sure these questions have already been asked, and I 
probably won't belabor the point, Mr. Chairman, and get on with 
business, but I am interested as we move forward, Mr. Terry, in 
taking some steps that will streamline and lessen this 
bureaucracy and these terrible delays that we deal with on 
appeals for our veterans, and I have had conversations with 
you. I know you are very committed to that purpose as well.
    Mr.--is it Ciccolella?
    Mr. Ciccolella. Ciccolella.
    Senator Thune. I am sorry. I wasn't here when you were 
introduced. So I didn't want to butcher your name.
    Chairman Craig. You didn't do any better than I did. Now we 
have got it down.
    Mr. Ciccolella. Believe me, I learned to tie my shoes 
first.
    Senator Thune. It is very reassuring to know that I am 
following the Chairman's example here.
    But I also think it is important, and the Chairman 
mentioned that we have an extraordinarily high number of people 
in the Guard that have served, and as they return in these 
employment issues, and also, of course, people in active duty 
who are coming back from these different theaters, some of whom 
are disabled, and making sure that they have the necessary 
training to get back into the labor pool. That is an incredibly 
important priority, and I hope that you will be very focused on 
that.
    If you feel the need to comment, feel free, but I don't 
have a specific question. I think those questions have probably 
been asked, but these are both issues and areas that are of 
great importance to our veterans, and we want to do justice to 
them. So thank you for your service and for your willingness to 
stay involved in public service and the good work that you are 
going to do on behalf of America's veterans. I would welcome, 
and I am sure the Chairman would as well, suggestions that you 
might have in terms of legislation that might help us better 
accomplish those objectives, knowing full well that funding is 
also a major issue in that process.
    Thank you, Mr. Chairman.
    Chairman Craig. Senator, thank you very much.
    Let me check with staff, but I believe Senator Murray is in 
route. Is this correct?
    Then we will keep the Committee open--I think the last vote 
is about to start and proceed in that manner. So we will not 
recess again, but stand down at least until Senator Murray 
arrives thank you.
    [Pause.]
    [Whereupon, at 11:46 a.m., the Committee adjourned.]

                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Daniel Akaka, U.S. Senator from Hawaii

    Thank you, Chairman Craig, for holding this hearing. Today the 
Committee will examine the nominations of two individuals for two very 
important positions.
    Mr. Charles S. Ciccolella is nominated to be Assistant Secretary of 
Veterans' Employment and Training (``VETS'') for the Department of 
Labor (DOL). Mr. James P. Terry is nominated to be the Chairman of the 
Board of Veterans' Appeals.
    Mr. Ciccolella, you have a long and distinguished career serving 
this Nation and its veterans. During your tenure in the United States 
Army you earned a Silver Star, the Defense Superior Service Medal, and 
the Bronze Star for Valor. In your current position as Deputy Assistant 
Secretary for ```VETS,'' you help veterans secure employment and 
protect their rights and benefits through DOL programs. In your 
interaction with the Committee, you have also been forthcoming about 
the problems facing ``VETS.'' This cooperation between the 
Administration and Congress makes this Committee's job much easier.
    With that said, I am concerned that ``VETS'' is not always 
available to provide Congress with the data that we require as an 
oversight body. And with an increasing number of servicemembers 
separating from military service, especially Guard and Reserves, I want 
to ensure that ``VETS'' has the ability to absorb this group as they 
transition from military to civilian life.
     Mr. Ciccolella, this Nation is fortunate to have a person of your 
character in public service. I congratulate you on your appointment and 
look forward to working with you.
     Mr. Terry, you also are a distinguished public servant. You are a 
decorated Vietnam veteran and a former Marine JAG officer. You were 
legal counsel to former Chairman of the Joint Chiefs of Staff, Colin 
Powell, and worked in both the Department of Interior and the State 
Department.
    Mr. Terry, I need not impress on you the importance of the job 
ahead of you. As Chairman of the Board of Veterans' Appeals, you would 
be tasked with the responsibility for handling all claims appealed from 
VA regional offices. We can expect the number of VA claims to increase 
as returning soldiers from OEF/OIF become veterans. It is imperative 
that you work closely with this Committee to ensure the Board has the 
resources necessary to quickly adjudicate veterans claims.
    Also, a recent VA inspector general's report highlighted, among 
other things, that certain conditions, such as Post-Traumatic Stress 
Disorder (PTSD), are difficult to define and be subjectively rated. I 
would like to work with you to make certain that PTSD and other 
disabilities that are difficult to define are adjudicated in a manner 
fair to the veteran.
    Lastly, I am concerned about the high remand rate of cases at the 
Board. We need to work with you to fix the problems in the system that 
may cause lengthy delays. Mr. Terry, thank you for accepting this 
nomination. I look forward to working with you.
    Mr. Chairman, thank you again for calling this hearing and thank 
you to both witnesses for joining us today.
                                 ______
                                 
    [Letter from Richard C. Schneider in support of the nomination of 
Charles Ciccolella to be Assistant Secretary for the Veterans 
Employment and Training.]
                NonCommissioned Officers Association of the
                                  United States of America,
                         Alexandria, Virginia 22313, July 12, 2005.
Hon. Larry E. Craig, Chairman,
Committee on Veterans' Affairs,
U.S. Senate,
SR-412, Russell Senate Office Building,
Washington, DC.
    Dear Mr. Chairman: The NonCommissioned Officers Association is 
appreciative that the Committee has worked with deliberate purpose to 
schedule the Confirmation Hearing for Charles S. ``Chick'' Ciccolella 
to be Assistant Secretary, Veterans' Employment and Training Service at 
the Department of Labor.
    NCOA without any equivocation fully supports the nomination of Mr. 
Ciccolella to this vital position that supports employment and training 
of those separating from active duty, Guard, or Reserve forces, 
veterans of military service and certain other eligible family members 
of these groups. Staff members of this Association, including myself, 
have been privileged to work with ``Chick'' on Appointed Advisory 
Committees at the Department of Labor and the Department of Veterans 
Affairs. He ably assisted those committees on recommendations involving 
veterans entering the employment market from military service, homeless 
veterans requiring special job preparation and training, and 
preparation of specially designed transition programs for incarcerated 
veterans upon release from confinement. He demonstrated over and over 
again his commitment to the Department of Labor and was instrumental in 
developing staff objectives and goals supporting the Assistant 
Secretary/``VETS'' initiative to make ``VETS'' a 21st Century Veterans' 
Employment and Training Service.
    Mr. Ciccolella has the personal drive and determination coupled 
with experience in and knowledge of the Department of Labor to be in 
his own right a most capable and productive Assistant Secretary for 
``VETS''. The Association believes it would be inexcusable for the 
Committee on Veterans Affairs to not only recommend but to secure 
immediate Senate Confirmation of Mr. Ciccolella as Assistant Secretary/
``VETS'' before the scheduled summer recess. America needs this 
employment advocate appointed at the Department of Labor to support 
military personnel returning from the Nation's War on Terrorism and to 
ensure those employment policies legislated for all veterans.
            Sincerely,
                                      Richard C. Schneider,
                         Executive Director for Government Affairs.


                                  <all>

</pre></body></html>
